1a
Appendix A
United States Court of Appeals
for the Eighth Circuit
-----------------------------------------------------------------------

No. 18-3461
-----------------------------------------------------------------------

Hawo O. Ahmed
Plaintiff - Appellee
v.
Heather Weyker, in her individual
capacity as a St. Paul Police Officer
Defendant - Appellant
-----------------------------------------------------------------------

No. 18-3471
-----------------------------------------------------------------------

Hamdi A. Mohamud
Plaintiff - Appellee
v.
Heather Weyker, in her individual
capacity as a St. Paul Police Officer
Defendant - Appellant
-----------------------------------------------------------------------

Appeals from United States District Court
for the District of Minnesota
-----------------------------------------------------------------------

Submitted: June 18, 2020
Filed: December 23, 2020
-----------------------------------------------------------------------

2a
Appendix A
Before KELLY, ERICKSON, and STRAS, Circuit Judges.
-----------------------------------------------------------------------

STRAS, Circuit Judge.
The plaintiffs are trying to hold a rogue law-enforcement officer responsible for landing them in jail
through lies and manipulation. But for us, a more fundamental question is at stake: who gets to make the
call about whether a federal remedy is available? As
we recently held, the decision lies with Congress, not
us, so we vacate the district court’s ruling. See Farah v.
Weyker, 926 F.3d 492 (8th Cir. 2019).
I.
This appeal is another chapter in the aftermath of
an investigation into an alleged interstate sex-trafficking scheme that was plagued with problems from the
start. Of the thirty people who were indicted, United
States v. Adan, 913 F. Supp. 2d 555, 558–59 (M.D. Tenn.
2012), only nine were ultimately tried, United States v.
Fahra, 643 F. App’x 480, 483 (6th Cir. 2016), and each
was acquitted, id. at 484. Since then, numerous civilrights complaints have been filed against St. Paul Police Officer Heather Weyker for her conduct during the
investigation.
A.
Two of those complaints were filed by Hawo Ahmed and Hamdi Mohamud. They, along with their

3a
Appendix A
friend Ifrah Yassin, were attacked one evening at an
apartment building in Minneapolis. Their attacker was
Muna Abdulkadir, a witness for the government in the
sex-trafficking case. During the incident, Abdulkadir
“smash[ed]” Ahmed’s windshield and “struck” Yassin,
all while “brandishing [a] knife.” Following the attack,
Ahmed and Mohamud called 911, and Abdulkadir
made a call of her own to Weyker. Worried about the
possibility of losing a witness, Weyker sprang into action.
She first contacted Minneapolis Police Officer
Anthijuan Beeks, who responded to the 911 call. Weyker told him that she had “information and documentation” that Ahmed, Mohamud, and Yassin “had been
actively seeking out Abdulkadir” in an effort “to intimidate” her for agreeing to cooperate in a federal investigation.
Abdulkadir was indeed a federal witness, but everything else Weyker said was “untrue.” She had no
“‘information’ or ‘documentation.’” Rather, she just
wanted to “shield[ ] Abdulkadir from arrest” to “further
incentiv[ize] . . . her” continued participation in the investigation. The plan worked. Officer Beeks arrested
Ahmed, Mohamud, and Yassin “on suspicion of tampering with a federal witness,” see 18 U.S.C. § 1513(b),
based “on Weyker’s intentional misrepresentations.”
Weyker did not stop there. The next day, she prepared a criminal complaint and a sworn affidavit. In
doing so, she once again “fabricated facts, knowingly

4a
Appendix A
relayed false information, and withheld exculpatory
facts, all with the intention that [the three women]
would continue [to be] detained for crimes [for] which
she knew there [was] no actual probable cause or arguable probable cause.”
These actions were not without consequences. Mohamud, a minor at the time, spent just short of 25
months in federal custody, with a “small portion” of it
on supervised release. Ahmed gave birth during the
more than 25 months she spent in custody. Eventually,
the government dismissed the case against Mohamud,
and a jury acquitted Ahmed.
After their release, both women sued Weyker in
her individual capacity on one overarching false-arrest
theory. See U.S. Const. amend. IV; Franks v. Delaware,
438 U.S. 154, 155–56 (1978); Small v. McCrystal, 708
F.3d 997, 1006 (8th Cir. 2013). Due to Weyker’s dual
status, they pleaded two causes of action against her:
one as a St. Paul police officer, see 42 U.S.C. § 1983, and
another as a deputized federal agent, see Bivens v. Six
Unknown Named Agents of Fed. Bureau of Narcotics,
403 U.S. 388, 397 (1971).
Weyker asked the district court to dismiss both
claims. See Fed. R. Civ. P. 12(b)(6). One reason was
qualified immunity: the requirement that any right
she may have violated had to be clearly established.
See Morgan v. Robinson, 920 F.3d 521, 523 (8th Cir.
2019) (en banc). The other was based on the limited
availability of a cause of action against federal officers.

5a
Appendix A
See Bivens, 403 U.S. at 397. The district court allowed
both claims to move forward, concluding both that
qualified immunity was unavailable and that the
plaintiffs had a cause of action against Weyker.1
Just last year, we decided a nearly identical case
that also involved Weyker. See Farah, 926 F.3d 492.
Five of the plaintiffs had been charged and detained as
suspected participants in the sex-trafficking scheme.
Id. at 496–97. Some were acquitted following a trial,
and the government dropped the charges against the
others. Id. at 496. All, however, accused Weyker of “exaggerating and inventing facts in reports[;] hiding [exculpatory] evidence”; manipulating witnesses; and
“deceiv[ing] prosecutors, the grand jury, and other investigators” along the way. Id. at 496–97. Like Ahmed
and Mohamud, they sought relief under both Bivens
and section 1983. Id. at 497. We held that, if Weyker
1

For this reason, the availability of a Bivens action is
squarely before us on appeal. Indeed, Weyker has argued all along
that the plaintiffs do not have a cause of action against her as a
deputized federal officer. See Defendant’s Memorandum in Support of Motion to Dismiss at 37–47, 0:17-cv-02070-JNE-TNL (D.
Minn. Oct. 20, 2017), ECF No. 19; see also Plaintiff Mohamud’s &
Plaintiff Ahmed’s Memorandum of Law Opposing Defendant’s
Motion to Dismiss at 15–16, 0:17-cv-02070-JNE-TNL (D. Minn.
Dec. 4, 2017), ECF No. 25. It is also her lead argument on appeal.
See Consolidated Br. for the Appellant at 13–26; see also Consolidated Response Br. for the Appellees at 12–15. To the extent that
the dissent has second thoughts about our decision to reach this
issue now, Farah all but settled that we can. 926 F.3d at 497,
502–03, 503 n.1 (treating the Bivens issue in a similar posture as
a “threshold question” and declining to decide qualified immunity
first).

6a
Appendix A
was acting as a federal officer at the time, no cause of
action was available. Id. at 502. We then remanded for
consideration of whether the plaintiffs could proceed
under section 1983. Id. at 502–03.
Yassin was the final plaintiff in the case. See id.
We never decided whether an implied cause of action
was available to her because Weyker never “meaningfully briefed” the issue. Id. at 503. Today, Weyker asks
us to answer the question that we left open in Farah.
II.
We now address this “threshold question”: whether
an implied cause of action is available to Ahmed and
Mohamud under the Constitution itself, more commonly known as a “Bivens action.” Hernandez v. Mesa,
140 S. Ct. 735, 742–43 (2020); Farah, 926 F.3d at 497;
see Bivens, 403 U.S. at 397. Answering it calls for “a
two-step inquiry,” Hernandez, 140 S. Ct. at 743, over
which our review is de novo, Farah, 926 F.3d at 497. At
the motion-to-dismiss stage, we assume that all factual
allegations in their complaints are true. Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
A.
“On only three occasions has the Supreme Court
[recognized] a cause of action under Bivens.” Farah,
926 F.3d at 497; see Carlson v. Green, 446 U.S. 14 (1980);
Davis v. Passman, 442 U.S. 228 (1979); Bivens, 403 U.S.

7a
Appendix A
388. Expanding Bivens is, according to the Supreme
Court, “now a ‘disfavored’ judicial activity.” Ziglar v.
Abbasi, 137 S. Ct. 1843, 1857 (2017) (quoting Iqbal,
556 U.S. at 675); see also Hernandez, 140 S. Ct. at 743
(“[F]or almost 40 years, we have consistently rebuffed
requests to add to the claims allowed under Bivens.”).
The reason is that the separation of powers generally
vests the power to create new causes of action in Congress, not us. See, e.g., Hernandez, 140 S. Ct. at 742; Abbasi, 137 S. Ct. at 1857.
With this presumption against creating new
Bivens actions in mind, Neb. Beef, Ltd. v. Greening, 398
F.3d 1080, 1084 (8th Cir. 2005), our analysis has two
steps. Under step one, if a case “present[s] one of the
three Bivens claims the [Supreme] Court has approved
in the past,” it “may proceed.” Farah, 926 F.3d at 498
(internal quotation marks omitted). If it does not, then
we go on to the next step. Id.
At step two, the question is whether “any special
factors counsel hesitation before implying a new cause
of action.” Id. (internal quotation marks and brackets
omitted). If there is “reason to pause before applying
Bivens in a new context or to a new class of defendants[,] we [must] reject the request.” Hernandez, 140
S. Ct. at 743.
B.
Just as we concluded in Farah, “[n]o Supreme
Court case exactly mirrors the facts and legal issues

8a
Appendix A
presented here.” 926 F.3d at 498. Neither Carlson nor
Davis is a match, which leaves Bivens as the only possibility. See Carlson, 446 U.S. at 1618, 16 n.1 (allowing a cruel-and-unusual-punishment claim to proceed
after prison officials fatally mishandled an inmate’s serious asthmatic condition); Davis, 442 U.S. at 235–36,
243–44 (recognizing a cause of action for a sex-discrimination claim under the Fifth Amendment).
1.
The claims in Bivens arose out of a warrantless
search and an illegal arrest. 403 U.S. at 389. Specifically, federal law-enforcement officers had “threatened
to arrest [Bivens’s] entire family” as they shackled
him; “searched [his] apartment from stem to stern”;
and after booking and interrogating him, “subjected
[him] to a visual strip search.” Id.; see Abbasi, 137
S. Ct. at 1860 (describing the case as “a claim against
FBI agents for handcuffing a man in his own home
without a warrant”). Under those circumstances, the
Supreme Court held that he had “a cause of action
[against the officers] under the Fourth Amendment”
and that “money damages” were potentially available
“for any injuries he ha[d] suffered.” Bivens, 403 U.S. at
397.
Our task is to determine whether this “case is different in a meaningful way from . . . Bivens.” See Abbasi, 137 S. Ct. at 1859. As we explained in Farah,
relevant differences can include, among other things,

9a
Appendix A
“the sorts of actions being challenged, the mechanism
of injury, and the kinds of proof those injuries would
require.” 926 F.3d at 500; see also Abbasi, 137 S. Ct.
at 1859–60 (providing “examples” of differences
without establishing “an exhaustive list”). Even
“small” differences can be “meaningful.” Abbasi, 137
S. Ct. at 1865 (calling this step “eas[y to] satisf[y]”); see
Hernandez, 140 S. Ct. at 743 (“[O]ur understanding of
a ‘new context’ is broad.”). The case before us is meaningfully different from Bivens in four ways.
First, “the sorts of actions being challenged” here
are different. Farah, 926 F.3d at 500. The focus in
Bivens was on an invasion into a home and the officers’
behavior once they got there. 403 U.S. at 389. Here, by
contrast, Weyker did not enter a home, even if the actions she allegedly took—like manufacturing evidence
and lying—were just as pernicious. Farah, 926 F.3d
at 499; see also Franks, 438 U.S. at 155–56 (holding
that fabricating probable cause through material and
knowingly false information in a warrant application
violates the Fourth Amendment); Small, 708 F.3d at
1006 (explaining that an officer violates an individual’s
Fourth Amendment rights when he persuades someone else that there is probable cause “based solely on
information the officer knew to be false” (quotation
marks omitted)). Lying and manipulation, however
bad they might be, are simply not the same as the
physical invasions that were at the heart of Bivens. See
Farah, 926 F.3d at 499; cf. Canada v. United States, 950
F.3d 299, 307 (5th Cir. 2020) (holding that the Supreme

10a
Appendix A
Court’s prior Bivens cases were meaningfully different
from a situation in which IRS agents had “intentionally manipulated a penalty assessment”).
Second, and closely related, Weyker’s role in the
arrests was different. In contrast to the officers in
Bivens, she did not arrest anyone herself, nor was she
even on the scene when the arrests occurred. See Abbasi, 137 S. Ct. at 1859–60 (listing “the generality or
specificity of the official action” as a meaningful potential difference). Rather, she provided allegedly false
information to another officer in a different police department, who then arrested the plaintiffs. See Cantú
v. Moody, 933 F.3d 414, 423 (5th Cir. 2019) (holding
that a “claim involv[ing] different conduct by different
officers from a different agency” than in Bivens presented a new context). In this way, Weyker’s actions fell
somewhere along the spectrum between a Franks-type
violation and a simple warrantless arrest. Compare
Franks, 438 U.S. at 155–56 (involving a situation in
which an officer makes “a false statement knowingly
and intentionally, or with reckless disregard for the
truth”), with District of Columbia v. Wesby, 138 S. Ct.
577, 586 (2018) (“A warrantless arrest is reasonable if
the officer has probable cause to believe that the suspect committed a crime in the officer’s presence.”). Not
only is this factual difference from Bivens meaningful,
it also narrows the doctrinal divide between a false-affidavit theory, which the dissent concedes is foreclosed
by Farah, and one based solely on the initial arrest itself.

11a
Appendix A
Third, although “the mechanism of injury” is a
closer call, there is still one meaningful difference.
Farah, 926 F.3d at 499. In Bivens, the injuries included
“humiliation, embarrassment, and mental suffering
[that] were directly caused by the officers’ conduct.” Id.
(internal quotation marks omitted). Ahmed and Mohamud suffered these same injuries, but the “direct[ ]
caus[al]” chain is missing. Id. Multiple “independent
legal actors”—Officer Weyker, Officer Beeks, and even
prosecutors—played a role.2 Id. Indeed, the dissent
concedes as much by invoking the collective-knowledge
doctrine. See United States v. Thompson, 533 F.3d 964,
969 (8th Cir. 2008) (explaining the collective-knowledge
doctrine, which involves multiple actors). Even though
it is true that “the mechanism of injury” is less attenuated here than in Farah, which involved “a series of
intervening steps,” the claims are still less “straightforward” than in Bivens. Farah, 926 F.3d at 499.
Fourth, proving these claims would require a different type of showing. Abbasi, 137 S. Ct. at 1860. For
the allegedly false affidavit, Ahmed and Mohamud
would have to establish that (1) Weyker’s statements
were false; (2) she made them “knowingly and intentionally, or with reckless disregard [for] the truth”; and
(3) without them, there would be no probable cause.
2

We read the plaintiffs’ allegations as primarily concerned
with the role that Weyker played in their arrests. To the extent
they seek “damages arising out of [their] post-arrest indictment[s],”
any such “claim must proceed, if at all, under section 1983.”
Farah, 926 F.3d at 503 n.2.

12a
Appendix A
Williams v. City of Alexander, 772 F.3d 1307, 1311 (8th
Cir. 2014) (quotation marks omitted); see Haywood v.
City of Chicago, 378 F.3d 714, 719–20 (7th Cir. 2004)
(applying Franks to misrepresentations made in the
context of continued detention). Bivens did not require
this type of fact-checking and conscience-probing,
403 U.S. at 389; Farah, 926 F.3d at 499, which can, as
the Supreme Court has warned, impose “substantial
costs,” Harlow v. Fitzgerald, 457 U.S. 800, 816 (1982).
Similarly, for the arrest itself, there would have to be
an examination into whether Officers Beeks would
have had probable cause to arrest the plaintiffs in the
absence of Weyker’s allegedly false information. See
Green v. Nocciero, 676 F.3d 748, 754–55 (8th Cir. 2012);
Fisher v. Wal-Mart Stores, Inc., 619 F.3d 811, 814–18
(8th Cir. 2010); see also Smoak v. Hall, 460 F.3d 768,
779–80 (6th Cir. 2006) (explaining that whether reasonable suspicion existed depended on “the facts
known to the . . . troopers who actually participated
in the seizure,” not simply what the dispatchers, who
relayed misleading and incomplete information, told
them). Although it would not quite rise to the level of
conscience-probing, it would still require fact-checking
what Beeks knew and when. See Green, 676 F.3d at
754–55; Fisher, 619 F.3d at 814–18. No comparable inquiry was in play in Bivens. 403 U.S. at 389 (involving
actions only by the arresting officers).
2.
When one or more meaningful differences exist,
it is not enough to identify a few similarities. The

13a
Appendix A
plaintiffs and dissent make much of the fact that this
case, like Bivens, arose out of an allegedly illegal arrest. But “a modest extension is still an extension,” Abbasi, 137 S. Ct. at 1864, even if it involves “the same
constitutional provision,” Hernandez, 140 S. Ct. at 743.
If the test sounds strict, it is. As an example, the
Supreme Court refused to recognize an implied cause
of action for a claim of inadequate medical treatment
against officers in a privately contracted prison, Corr.
Servs. Corp. v. Malesko, 534 U.S. 61, 63–64, 73–74
(2001), even though it had previously recognized an
identical claim against a prison guard in a federally
run prison, Carlson, 446 U.S. at 16–18. See Hernandez,
140 S. Ct. at 743 (comparing Carlson and Malesko on
this basis). If Malesko was a new context, then this
case is too. See Farah, 926 F.3d at 498–500; see also
Abbasi, 137 S. Ct. at 1856 (explaining that the Supreme Court had “no[ ] inten[t] to cast doubt on the
continued force, or even the necessity, of Bivens in the
search-and-seizure context in which it arose” (emphasis added)); Cantú, 933 F.3d at 423 (concluding that an
unlawful-seizure claim under the Fourth Amendment
presented a new context when the plaintiff alleged
that officers “falsified affidavits,” rather than “entered
[a] home without a warrant”).
C.
At step two, the task is to determine whether,
in this new context, an implied cause of action is available. The focus is on whether there are any “special

14a
Appendix A
factors” that “cause[ ] [us] to pause before acting without express congressional authorization.” Abbasi, 137
S. Ct. at 1857–58 (quotation marks omitted). “It does
not take much,” Farah, 926 F.3d at 500, because Congress is usually “in the better position” to weigh the
costs and benefits of creating “a new substantive legal
liability,” id. (quoting Abbasi, 137 S. Ct. at 1857). On
this point, Farah once again does much of the heavy
lifting. Id.
Just like in Farah, a trial would “risk . . . burdening and interfering with the executive branch’s investigative . . . functions.” Id. Perhaps the level of
interference would be less than in Farah, as the plaintiffs argue, but a jury would still need to determine
what Weyker knew, what she did not know, and her
state of mind at the time. Williams, 772 F.3d at 1311.
There are, as we explain above, “substantial costs” associated with requiring public officials to litigate these
types of issues, including “the diversion” of public resources and deterring “able citizens from . . . public office.” See Harlow, 457 U.S. at 814, 816. It may well be
that the costs are worth it, but Congress is better
equipped than we are to make the call. Farah, 926 F.3d
at 501.
Moreover, as in Farah, other remedies are available “to address injuries of the sort the plaintiffs have
alleged[ ].” Id. “The so-called Hyde Amendment allows
courts to award attorney fees to criminal defendants
who prevail against ‘vexatious, frivolous, or . . . bad[-]
faith’ positions taken by the government.” Id. (quoting

15a
Appendix A
Act of Nov. 26, 1997, Pub. L. No. 105-119, § 617, 111
Stat. 2440, 2519 (codified at 18 U.S.C. § 3006A note)).
And for “those who are wrongly convicted and sentenced,” damages may be available. Id. (citing 28 U.S.C.
§ 1495). We are especially reluctant to supplement
those remedies with our own, which could upset the
existing remedial structure. Abbasi, 137 S. Ct. at 1858;
Farah, 926 F.3d at 501–02. This factor alone, as the Supreme Court has explained, is “a convincing reason”
not to extend Bivens. Abbasi, 137 S. Ct. at 1858 (quotation marks omitted).
None of this should be surprising. After all, the Supreme Court has not recognized a new Bivens action
“for almost 40 years.” Hernandez, 140 S. Ct. at 743; see
also Abbasi, 137 S. Ct. at 1857 (collecting cases). Our
conclusion here is no different.
III.
So what happens next? Just because a Bivens remedy is off the table does not mean the plaintiffs’ cases
are over. If the district court determines on remand
that Weyker was acting under color of state law, their
section 1983 claims may proceed, subject to Weyker’s
defense of qualified immunity.3 Farah, 926 F.3d at
3

It is premature at this point to address Weyker’s argument
that the district court abused its discretion when, in addressing
qualified immunity, it declined to take judicial notice of matters
outside the pleadings. See Cravens v. Smith, 610 F.3d 1019, 1029
(8th Cir. 2010) (standard of review); 2 James Wm. Moore, Moore’s
Federal Practice § 12.34[2], at 12-94 (3d ed. 2020).

16a
Appendix A
502–03, 503 n.1 (declining “to skip over the undercolor-of-state-law element to decide . . . qualified immunity”); see Magee v. Trs. of Hamline Univ., 747 F.3d
532, 535 (8th Cir. 2014) (evaluating whether an officer
acted under color of state law).
IV.
We accordingly vacate and remand to the district
court to dismiss the plaintiffs’ Bivens claims and determine whether their cases can proceed under 42 U.S.C.
§ 1983.

KELLY, Circuit Judge, dissenting.
In Ziglar v. Abbasi, 137 S. Ct. 1843 (2017), the Supreme Court cautioned that extending Bivens to new
contexts is a “disfavored judicial activity.” Id. at 1857
(cleaned up). But because I believe that one of plaintiffs’ claims does not extend Bivens to a new context, I
respectfully dissent from the court’s conclusion otherwise.4

4

As an initial matter, I note that it may be premature to
address Officer Weyker’s claim that Bivens does not afford a potential remedy for plaintiffs’ claimed injuries. Officer Weyker appeals the district court’s denial of her motion to dismiss the case
based on qualified immunity. But that opinion concluded that
there was “no need to decide” at that time whether Bivens or 42
U.S.C. § 1983 provided the “proper vehicle” for plaintiffs’ claims,
and we “ordinarily, we do not decide issues the district court did

17a
Appendix A
In 2017, plaintiffs Hawo Ahmed and Hamdi Mohamud filed complaints against Officer Heather Weyker in federal court. The complaints identify two
separate instances in which Officer Weyker allegedly
lied about Ahmed and Mohamud’s suspected criminal
activity, leading to their detention in federal custody.
First, Ahmed and Mohamud claim that Officer Weyker
knowingly provided false information to Officer Anthijuan Beeks, which caused Officer Beeks to arrest and
transport them to jail when he otherwise had no basis
to do so. Second, they claim that, after this initial arrest, Officer Weyker submitted a federal criminal complaint and supporting affidavit, in which she omitted
exculpatory information and included information that
she knew to be false. This affidavit led the court to issue arrest warrants for Ahmed and Mohamud. They
were then placed in federal custody and eventually indicted for violating multiple federal laws. In both of
these actions, Ahmed and Mohamud contend, Officer
Weyker fabricated “probable cause that did not otherwise exist,” causing them to be “seized, arrested, detained, charged and indicted” in violation of their
Fourth Amendment rights.
I agree with the court that, based on our precedent, no Bivens remedy is available for plaintiffs’ claim
that Officer Weyker violated their Fourth Amendment
rights by submitting a false affidavit to the district
not adjudicate.” Braden v. Wal-Mart Stores, Inc., 588 F.3d 585,
603 (8th Cir. 2009) (quoting Daisy Mfg. Co. v. NCR Corp., 29 F.3d
389, 395 (8th Cir. 1994)).

18a
Appendix A
court. In Farah v. Weyker, 926 F.3d 492 (8th Cir. 2019),
this court held that a claim that a federally deputized
officer (namely, Officer Weyker) “duped prosecutors and
a grand jury into believing that the plaintiffs were part
of a multi-state sex-trafficking conspiracy” was “meaningfully different” from established Bivens cases. Id. at
498. Because “special factors” weighed against extending Bivens to the new context, we declined to do so. Id.
at 500-02. As largely the same differences and special
factors are present in Ahmed and Mohamud’s second
allegation against Officer Weyker, Farah forecloses the
possibility of Bivens relief on that claim.
But Farah does not foreclose relief for Ahmed and
Mohamud’s first allegation—that Officer Weyker lied
to Officer Beeks, which resulted in their unlawful arrest.5 As Ahmed and Mohamud describe it in their complaints, this claim asserts that Officer Weyker caused
them to be arrested without probable cause. See
United States v. Thompson, 533 F.3d 964, 969-70 (8th
Cir. 2008) (explaining that the question of whether officers have probable cause to arrest is based on the
collective knowledge of all officers involved). This was
the claim at issue in Bivens. Though Bivens also alleged that officers used unreasonable force during their
search of his home, one of his core contentions was that
the officers did not have probable cause when they
5

The court describes prosecutors as “play[ing] a role” in the
events underlying Ahmed and Weyker’s claim. Supra at 8. On my
read, the only legal actors involved in the arrest were Officer Weyker and Officer Beeks.

19a
Appendix A
arrested him. See Bivens v. Six Unknown Named
Agents of Fed. Bureau of Narcotics, 403 U.S. 388, 389
(1971) (“[Bivens’s] complaint asserted that the arrest
and search were effected without a warrant, and that
unreasonable force was employed in making the arrest; fairly read, it alleges as well that the arrest was
made without probable cause.”). Rather than representing an extension of Bivens, plaintiffs’ claim falls
squarely within the cause of action recognized by
Bivens itself. Cf. Abbasi, 137 S. Ct. at 1856 (refusing to
“cast doubt on the continued force, or even the necessity, of Bivens in the search-and-seizure context in
which it arose”); see also Hicks v. Ferreya, 965 F.3d 302,
311-12 (4th Cir. 2020) (applying Bivens to a claim of
unlawful seizure during a traffic stop); Jacobs v. Alam,
915 F.3d 1028, 1038-39 (6th Cir. 2019) (applying Bivens
to claims for excessive force, false arrest, malicious
prosecution, fabrication of evidence, and civil conspiracy); Brunoehler v. Tarwater, 743 F. Appx. 740, 743-44
(9th Cir. 2018) (unpublished) (applying Bivens to
claims of search and arrest without probable cause).
In concluding that plaintiffs’ claim presents a new
context, the court highlights several differences between plaintiffs’ claim and Bivens that it finds relevant: differences between the “sorts of actions being
challenged,” “the mechanism of injury” and role of Officer Weyker in that injury, and the type of showing required to prove plaintiffs’ claim. See supra at 7-8. To
the court, these differences require it to move on to
step two of Abbasi and determine whether “special

20a
Appendix A
factors” exist that would counsel hesitation in extending a Bivens remedy.
I do not see the differences that the court does. As
to the first claimed difference, the type of action being
challenged here was also at issue in Bivens: an arrest
unsupported by probable cause. That Bivens also included a separate claim about the officers’ use of force
within Bivens’s home does not undermine the fact that
in both that case and this one the plaintiffs’ claimed
injuries stemmed from the arrest itself. Similarly, the
mechanism of injury and role Officer Weyker played
are the same as in Bivens: actions by law enforcement
officers, one of whom was Officer Weyker. The court
points to the absence of a “direct causal chain” and the
involvement of “multiple independent legal actors” in
this case, see supra at 7, but the situation is simpler
than the court makes it out to be. Officer Weyker is alleged to have lied to Officer Beeks about the basis for
probable cause to arrest plaintiffs, and Officer Beeks
arrested plaintiffs based on that false information. It
is unclear to me why we should take pains to separate
out Officer Weyker’s role in plaintiffs’ arrest, particularly when in other contexts we readily recognize the
collective role different officers play in effectuating arrests. See, e.g., Thompson, 533 F.3d at 969-70 (describing the collective knowledge doctrine). Finally, the
showing required to prove plaintiffs’ claim here would
be the same as that required in Bivens. In any challenge to a warrantless arrest, the person claiming a violation of her Fourth Amendment rights must show

21a
Appendix A
that the facts known to the officers involved did not
provide a reasonable probability of criminal activity.
See, e.g., District of Columbia v. Wesby, 138 S. Ct. 577,
586 (2018) (explaining probable cause standard). Regardless of why a plaintiff might allege that probable
cause was lacking, the court assessing her claim must
examine what the officers knew at the time of the arrest—an inquiry that may, in any case, involve “factchecking” of how those officers came to their conclusions.6 Cf. Fisher v. Wal-Mart Stores, Inc., 619 F.3d 811,
817 (8th Cir. 2010) (when one officer instructs another
to make an arrest, “[w]e consider the pertinent question to be whether [the instructing officer] had probable cause at the time of the arrest: that is, whether the
facts and circumstances would have led to a reasonable
conclusion that a crime had been committed”). This is
the showing that the plaintiff in Bivens would have
had to make and that Ahmed and Mohamud would be
making here.
We are also guided by Abbasi, which provides examples of “differences that are meaningful enough to
make a given context a new one.” Abbasi, 137 S. Ct. at
6

Williams v. City of Alexander, 772 F.3d 1307 (8th Cir.
2014), which addresses an allegedly false warrant affidavit, may
support the conclusion that plaintiffs’ false affidavit claim is different than that in Bivens. See id. at 1311 (“[W]hen a police officer
deliberately or recklessly makes false statements to demonstrate
probable cause for an arrest warrant, the warrant may be invalidated under Franks v. Delaware.”). But in my view, Franks plays
no role in a claim that officers effectuated a warrantless arrest
without probable cause.

22a
Appendix A
1859-60. These include “the rank of the officers involved; the constitutional right at issue; the generality
or specificity of the official action; the extent of judicial
guidance as to how an officer should respond to the
problem or emergency to be confronted; the statutory
or other legal mandate under which the officer was
operating; the risk of disruptive intrusion by the Judiciary into the functioning of other branches; or the
presence or potential special factors that previous
Bivens cases did not consider.” Id. at 1860. No meaningful differences are present here. Like the agents in
Bivens, Officer Weyker was an investigative officer
who is alleged to have violated plaintiffs’ Fourth
Amendment right to be free of unlawful arrest. Cf. Hernandez v. Mesa, 140 S. Ct. 735, 743-44 (2020) (establishing that “[a] claim may arise in a new context even
if it is based on the same constitutional provision” as a
previous claim, but describing Bivens as covering “an
allegedly unconstitutional arrest and search” by local
police officers). The judicial guidance on conducting a
lawful arrest remains clear, and the mandate comes
from the Constitution. Recognizing plaintiffs’ claim
risks no more intrusion into the functioning of another branch of government than did Bivens, which
also turned on the knowledge and actions of police officers. And here, plaintiffs challenge an “individual instance[ ] . . . of law enforcement overreach, which due
to [its] very nature [is] difficult to address except by
way of damages actions after the fact.” Abbasi, 137
S. Ct. at 1862. While these factors are not exhaustive, see id. at 1859-60, each supports the conclusion

23a
Appendix A
that the context for plaintiffs’ false arrest claim is not
new.
The Supreme Court in Abbasi did “not intend[ ] to
cast doubt on the continued force, or even the necessity,
of Bivens in the search-and-seizure context in which it
arose.” Id. at 1856; see also id. at 1856-57 (“Bivens does
vindicate the Constitution by allowing some redress
for injuries, and it provides instruction and guidance
to federal law enforcement officers going forward.”).
I find no meaningful difference between plaintiffs’
Fourth Amendment false arrest claim and what the
Supreme Court recognized in Bivens and has continued to recognize in Abbasi and Hernandez. In my view,
a Bivens remedy is available to Ahmed and Mohamud
on this claim.7 Because the court denies them this remedy, I respectfully dissent.

7

The court maintains that Ahmed and Mohamud may still
seek recourse for their claimed harm under § 1983. However, I
note that the district court has already determined in a related
case that, on the date in question, Officer Weyker was acting as a
federally deputized officer, not under color of state law, making a
§ 1983 claim unavailable. See Yassin v. Weyker, No. 16-cv-2580
(JNE/TNL), 2020 WL 6438892 at *4-5 (D. Minn. Sept. 30, 2020),
appeal filed, No. 20-3299 (8th Cir. Nov. 2, 2020). The court’s decision here will thus have the likely effect of denying plaintiffs any
legal remedy for the constitutional violation they allege. See Abbasi, 137 S. Ct. at 1863 (“There is a persisting concern, of course,
that absent a Bivens remedy there will be insufficient deterrence
to prevent officers from violating the Constitution.”).

24a
Appendix B
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Hamdi A. Mohamud,
Plaintiff,
v.
Heather Weyker, in her
individual capacity as a
St. Paul Police Officer,

Case No. 17-cv-2069
(JNE/TNL) ORDER

Defendant.
Hawo O. Ahmed,
Plaintiff,
v.
Heather Weyker, in her
individual capacity as a
St. Paul Police Officer,

Case No. 17-cv-2070
(JNE/TNL) ORDER

Defendant.
Filed: September 18, 2018
Asserting that they were seized in violation of the
Fourth Amendment, Hamdi A. Mohamud and Hawo O.
Ahmed brought actions against Heather Weyker under
42 U.S.C. § 1983 (2012) and Bivens v. Six Unknown
Named Agents of Federal Bureau of Narcotics, 403 U.S.
388 (1971). Mohamud and Ahmed alleged that Weyker,
a St. Paul police officer, provided false information, fabricated evidence, and withheld exculpatory evidence
about them. They were arrested and subsequently
charged with witness tampering and obstructing sex

25a
Appendix B
trafficking enforcement. Ahmed was acquitted after a
jury trial. The charges against Mohamud were dismissed.
Weyker moved to dismiss Mohamud’s and Ahmed’s actions, arguing that she is entitled to qualified
immunity because Mohamud and Ahmed failed to
plausibly allege Weyker violated any clearly established constitutional right. Weyker also asserted that
no cause of action exists under either Bivens or § 1983
to sue her in her individual capacity. For the reasons
set forth below, the Court denies Weyker’s motions.
I.

BACKGROUND

Mohamud’s and Ahmed’s amended complaints are
essentially identical. The following summarizes them.
On June 16, 2011, Mohamud, Ahmed, and another
individual were involved in an altercation with Muna
Abdulkadir.1 The incident took place at Abdulkadir’s
apartment building in Minneapolis, Minnesota. Ahmed and Abdulkadir agreed to fight to settle their
“beef.” After agreeing to fight, Abdulkadir indicated
she wanted to go upstairs and change her clothes. The
four entered an elevator, where a scuffle briefly took
1

Ifrah Yassin is the third individual who was involved in the
altercation with Abdulkadir. Yassin brought an action against
Weyker and others that is similar to the actions brought by Mohamud and Ahmed. The Court granted in part and denied in part
Weyker’s motion to dismiss Yassin’s claims. Yassin v. Weyker, Case
No. 16-cv-2580 (JNE/TNL), 2017 WL 3425689 (D. Minn. Aug. 9,
2017), appeal docketed, No. 17-3208 (8th Cir. Oct. 13, 2017).

26a
Appendix B
place. Abdulkadir exited the elevator, and the other
three descended in the elevator.
Abdulkadir retrieved a knife from her apartment,
proceeded downstairs, and exited the building. Abdulkadir approached Ahmed’s vehicle and smashed its
windshield with the knife. A short time later, Ahmed,
Mohamud, and the other individual exited the building. Abdulkadir struck the other individual with the
knife. Ahmed, Mohamud, and the other individual
called 911 to report Abdulkadir for assault and property damage.
When Abdulkadir realized the police had been
summoned, she returned to her apartment building
and called Weyker. Abdulkadir told Weyker that she
had been in a fight; that she had attacked Mohamud,
Ahmed, and the other individual with a knife; that the
police had been summoned; that she was hiding in a
neighbor’s apartment; and that she feared she was going to be arrested.
A Minneapolis police officer, Anthijuan Beeks, responded to the 911 call made by Ahmed, Mohamud,
and the other individual. When he arrived on the
scene, Beeks regarded them as victims of a crime committed by Abdulkadir. He had no reason to suspect that
Ahmed, Mohamud, and the other individual had
sought to harm, threaten, or intimidate Abdulkadir because of her role as a witness in a federal prosecution.
Approximately 20 minutes after he arrived on the
scene, Beeks received a message that he should contact Weyker before he continued his investigation. He

27a
Appendix B
called her, and she told him that Abdulkadir is a federal witness in a prostitution investigation in which 30
people had been indicted; that Weyker had information
and documentation that Ahmed, Mohamud, and the
other individual had been actively seeking out Abdulkadir and attempting to intimidate and harm Abdulkadir; and that one of Ahmed’s friends was dating a
man who had been indicted in the prostitution investigation. Weyker knowingly gave false information to
Beeks. She had no information or documentation that
Ahmed, Mohamud, and the other individual were actively looking for Abdulkadir and attempting to intimidate or harm Abdulkadir. Weyker had no information
that one of Ahmed’s friends was dating a man who had
been indicted in the prostitution investigation.
After he spoke with Weyker, Beeks interviewed
Abdulkadir about the altercation. Abdulkadir told
Beeks that the altercation started with a casual conversation. Abdulkadir did not say anything about having a dispute with Ahmed, Mohamud, and the other
individual; about Ahmed, Mohamud, and the other individual making any threats; about the prostitution investigation or her role in it; about Ahmed, Mohamud,
and the other individual having a knife; about why she
agreed to fight Ahmed; or about being injured by a
knife. Beeks determined that Abdulkadir had not attempted to call 911 and that she instead obtained a
knife, proceeded downstairs, and smashed the windshield of Ahmed’s car. Abdulkadir admitted to Beeks
that she struck the other individual with the knife.

28a
Appendix B
In addition to speaking with Beeks, Weyker spoke
with a Minneapolis police sergeant, Gary Manty, on
June 16, 2011. Weyker gave Manty false information:
that a friend of Ahmed and Mohamud had stated to
Abdulkadir that her friends were incarcerated because
of Abdulkadir; that the incarcerated individuals were
Somali Outlaws; that a friend of Ahmed and Mohamud
was acquainted with a man who had been indicted in
the prostitution investigation; that Ahmed, Mohamud,
and the other individual went to Abdulkadir’s apartment building to intimidate Abdulkadir about being a
federal witness against individuals who were arrested
and charged in the prostitution investigation; and that
Abdulkadir feared for her life and feared retaliation
because of her involvement in the prostitution investigation.
Weyker provided the false information to Beeks
and Manty to shield Abdulkadir from arrest. Weyker
sought to assist Abdulkadir to avoid criminal charges
so as to provide Abdulkadir an incentive to continue to
work with Weyker by fabricating evidence and providing false testimony in the prostitution investigation.
Beeks arrested Ahmed, Mohamud, and the other
individual on suspicion of tampering with a federal
witness. While transporting them to jail, Beeks told
them they were arrested because of the assertions
Weyker had made about them.
On June 17, 2011, Weyker executed a federal criminal complaint and a supporting affidavit against Ahmed, Mohamud, and the other individual for tampering

29a
Appendix B
with a federal witness and obstructing the prostitution
investigation. Weyker included false information in the
criminal complaint. For instance, Weyker stated the altercation was related to the prostitution investigation,
but she knew there were no facts to support the assertion. Weyker stated the friend of Ahmed and Mohamud
confronted Abdulkadir because Abdulkadir was the
reason her friends were incarcerated, but Weyker
knew there was no factual basis to support the statement. Weyker claimed that Abdulkadir had been attacked with a knife and injured, but Weyker knew
there was no evidence that Abdulkadir was attacked
with a knife or injured. Weyker stated that Ahmed, Mohamud, or the other individual chased Abdulkadir outside with a knife, but Weyker knew Ahmed, Mohamud,
and the other individual did not have a knife and did
not chase Abdulkadir. Weyker asserted that Ahmed,
Mohamud, or the other individual attacked Abdulkadir’s mother, but Weyker knew nobody had attacked
Abdulkadir’s mother. Weyker stated that Ahmed, Mohamud, and the other individual had threatened Abdulkadir about putting people in jail, but Weyker knew
no such threats were made.
Weyker did not provide exculpatory evidence in
the criminal complaint and supporting affidavit. For
example, Weyker did not state that Ahmed, Mohamud,
and the other individual called 911 to report being
assaulted by Abdulkadir. Weyker did not stated that
Abdulkadir contacted Weyker while hiding from the
Minneapolis police out of fear of being arrested for assaulting Mohamud, Ahmed, and the other individual.

30a
Appendix B
Weyker did not state that that there was no record of
Mohamud, Ahmed, and the other individual being involved with the individuals who were indicted in the
prostitution investigation. Weyker did not state that
there was no record of Mohamud, Ahmed, and the other
individual communicating with Abdulkadir about the
prostitution investigation. Weyker did not state that
the on-scene investigator’s interview with Abdulkadir
revealed no statement about Mohamud, Ahmed, and
the other individual threatening Abdulkadir; no
statement about Mohamud, Ahmed, and the other individual attacking Abdulkadir with a knife; and no
statement about Mohamud, Ahmed, and the other individual mentioning Abdulkadir’s role as a witness in
the prostitution investigation.
On June 17, 2011, warrants to arrest Mohamud
and Ahmed were issued, and they were placed in federal custody. They were indicted on June 29, 2011, for
violating federal laws. From June 17, 2011, to July 30,
2013, Ahmed remained in federal custody. She was acquitted of all charges after a jury trial. From June 17,
2011, to July 10, 2013, when all charges against her
were dismissed, Mohamud remained in federal custody. She was subject to supervised release for a short
time.
II.

DISCUSSION

“To survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’”

31a
Appendix B
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)). A
plaintiff satisfies this requirement by “plead[ing] factual content that allows the court to draw the reasonable inference that the defendant is liable for the
misconduct alleged.” Id. “[T]he tenet that a court must
accept as true all of the allegations contained in a complaint is inapplicable to legal conclusions. Threadbare
recitals of the elements of a cause of action, supported
by mere conclusory statements, do not suffice.” Id.
“When there are well-pleaded factual allegations, a
court should assume their veracity and then determine
whether they plausibly give rise to an entitlement to
relief.” Id. at 679. “The plausibility standard is not akin
to a ‘probability requirement,’ but it asks for more than
a sheer possibility that a defendant has acted unlawfully.” Id. at 678.
In considering a motion to dismiss for failure to
state a claim, “a district court generally may not consider materials outside the pleadings.” Noble Sys. Corp.
v. Alorica Cent., LLC, 543 F.3d 978, 982 (8th Cir. 2008).
A district court may “consider some public records, materials that do not contradict the complaint, or materials
that are ‘necessarily embraced by the pleadings.’” Id.
“[D]efendants seeking dismissal under Rule 12(b)(6)
based on an assertion of qualified immunity ‘must
show that they are entitled to qualified immunity on
the face of the complaint.’” Kulkay v. Roy, 847 F.3d 637,
642 (8th Cir. 2017) (alteration in original) (quoting
Carter v. Huterson, 831 F.3d 1104, 1107 (8th Cir. 2016));
accord Stanley v. Finnegan, 899 F.3d 623, 627 (8th Cir.

32a
Appendix B
2018); Kiesling v. Holladay, 859 F.3d 529, 533 (8th Cir.
2017). “The doctrine of qualified immunity generally
shields public and government officials performing discretionary functions from civil liability ‘insofar as their
conduct does not violate clearly established statutory
or constitutional rights of which a reasonable person
would have known.’” Kulkay, 847 F.3d at 642 (quoting
Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982)). “To
determine whether a defendant is entitled to dismissal on the basis of qualified immunity, we consider
‘(1) whether the official’s conduct violated a constitutional right; and (2) whether the violated right was
clearly established.’” Stanley, 899 F.3d at 627 (quoting
Manning v. Cotton, 862 F.3d 663, 668 (8th Cir. 2017)).
The parties presented matters outside the pleadings in connection with Weyker’s motions to dismiss.
The Court excludes them. See Fed. R. Civ. P. 12(d);
Covey v. Assessor of Ohio Cty., 777 F.3d 186, 193 & n.7
(4th Cir. 2015) (“Although some of the parties’ filings
(such as the criminal complaint) could have been used
for limited purposes . . . any disputed testimony contained therein should have been ignored in favor of the
complaint’s allegations. Perhaps more simply, the court
could have wholly ignored such attachments and relied
exclusively on the complaint.” (citation omitted)); Stahl
v. U.S. Dep’t of Agric., 327 F.3d 697, 701 (8th Cir. 2003)
(quotation omitted) (stating a court has complete discretion to determine whether to accept any material
beyond the pleadings offered in connection with a Rule
12(b)(6) motion); cf. Glob. Network Commc’ns, Inc. v.
City of New York, 458 F.3d 150, 157 (2d Cir. 2006)

33a
Appendix B
(“[A]lthough the final determination of March 2005
and Massie’s testimony may be public records of which
a court may take judicial notice, ‘it may do so on a motion to dismiss only to establish the existence of the
opinion, not for the truth of the facts asserted in the
opinion.’”).
“A warrantless arrest is consistent with the
Fourth Amendment if it is supported by probable
cause, and an officer is entitled to qualified immunity
if there is at least ‘arguable probable cause.’” Ulrich v.
Pope Cty., 715 F.3d 1054, 1059 (8th Cir. 2013) (quoting
Borgman v. Kedley, 646 F.3d 518, 522-23 (8th Cir.
2011)). “Probable cause exists if the totality of facts
based on reasonably trustworthy information would
justify a prudent person in believing the individual arrested had committed an offense.” Small v. McCrystal,
708 F.3d 997, 1003 (8th Cir. 2013) (quoting Copeland v.
Locke, 613 F.3d 875, 879 (8th Cir. 2010)). “Arguable
probable cause exists even where an officer mistakenly
arrests a suspect believing it is based in probable cause
if the mistake is ‘objectively reasonable.’” Ulrich, 715
F.3d at 1059 (quoting Borgman, 646 F.3d at 523). “The
probable cause standard inherently allows room for
reasonable mistakes by a reasonable person, but the
qualified immunity standard affords law enforcement
officials an even wider berth for mistaken judgments
‘by protecting all but the plainly incompetent or those
who knowingly violate the law.’” Id. (quoting Hunter v.
Bryant, 502 U.S. 224, 229 (1991)).
“A warrant based upon an affidavit containing ‘deliberate falsehood’ or ‘reckless disregard for the truth’

34a
Appendix B
violates the Fourth Amendment.” Small, 708 F.3d at
1006 (quoting Bagby v. Brondhaver, 98 F.3d 1096, 1098
(8th Cir. 1996)). “[W]hen a police officer deliberately or
recklessly makes false statements to demonstrate
probable cause for an arrest warrant, the warrant may
be invalidated” under Franks v. Delaware, 438 U.S. 154
(1978). Williams v. City of Alexander, 772 F.3d 1307,
1311 (8th Cir. 2014). “To establish a Franks violation,
the plaintiff must prove ‘1) that a false statement
knowingly and intentionally, or with reckless disregard to the truth, was included in the affidavit, and
2) that the affidavit’s remaining content is insufficient
to provide probable cause.’” Id. (quoting United States
v. Box, 193 F.3d 1032, 1034-35 (8th Cir. 1999)). “Under
Franks, [a plaintiff ] can challenge the affidavit based
on the omission of facts by proving ‘1) that facts were
omitted with the intent to make, or in reckless disregard of whether they thereby make, the affidavit misleading, and 2) that the affidavit, if supplemented by
the omitted information, could not support a finding of
probable cause.’” Id. at 1312 (quoting Box, 193 F.3d at
1035).
“It is clearly established that a warrantless arrest,
unsupported by probable cause, violates the Fourth
Amendment.” Dowell v. Lincoln Cty., 762 F.3d 770, 777
(8th Cir. 2014) (quoting Small, 708 F.3d at 1003). It is
also clearly established that “a seizure without ‘a
truthful factual showing sufficient to constitute probable cause’ violates the Fourth Amendment.” Livers v.
Schenck, 700 F.3d 340, 357 (8th Cir. 2012) (quoting
Hedges v. Poletis, 177 F.3d 1071, 1074 (8th Cir. 1999)).

35a
Appendix B
Weyker asserted that she is entitled to qualified
immunity because “probable cause existed for Officer
Beeks to arrest Plaintiffs independent of any information provided by Officer Weyker”; “Plaintiffs’ initial
arrest complied with the Fourth Amendment because
probable cause existed for other crimes”; “the federal
criminal complaint filed by Officer Weyker was supported by probable cause”; “Plaintiffs’ assertions of innocence and reliance on the judicial opinions in the
sex trafficking cases lend no plausibility to a Fourth
Amendment violation”; and “Plaintiffs’ claims are barred
because Plaintiffs did not mount a successful probable
cause challenge during their criminal proceedings.”
Weyker’s arguments relied heavily on matters outside
the pleadings. According to the Ahmed’s and Mohamud’s amended complaints, Beeks regarded Ahmed
and Mohamud as victims of a crime committed by Abdulkadir when he arrived on the scene on June 16, and
nothing in his subsequent investigation, except the allegedly false information conveyed to him by Weyker,
led him to believe that Ahmed or Mohamud had engaged in any criminal activity. Ahmed and Mohamud
alleged that Weyker knowingly recounted a false narrative to support the criminal complaint against them.
Given the allegations of Ahmed and Mohamud, their
failures to successfully contest probable cause during
their criminal cases do not vitiate their claims against
Weyker. See Manuel v. City of Joliet, 137 S. Ct. 911,
919-20 (2017). The Court concludes that Ahmed and
Mohamud plausibly alleged Weyker violated rights under the Fourth Amendment and that their allegedly violated rights were clearly established. See Odom v.

36a
Appendix B
Kaizer, 864 F.3d 920, 922-23 (8th Cir. 2017); Dowell,
762 F.3d at 777; Livers, 700 F.3d at 357. At this stage
of the litigation, Weyker is not entitled to qualified immunity.
In similar cases, the Court discerned no need to
“decide whether the proper vehicle for [the plaintiff ’s]
claims is a § 1983 or Bivens cause of action.” Osman
v. Weyker, Case No. 16-cv-908 (JNE/TNL), 2017 WL
3425647, at *6-7 (D. Minn. Aug. 9, 2017), appeal docketed, No. 17-3209 (8th Cir. Oct. 13, 2017); see Yassin,
2017 WL 3425689, at *3 n.5. The Court does the same
here.
III.

CONCLUSION

Based on the files, records, and proceedings
herein, and for the reasons stated above, IT IS ORDERED THAT:
1.

Weyker’s motions to dismiss [Docket No.
15 in Case No. 17-cv-2069; Docket No. 16
in Case No. 17-cv-2070] are DENIED.

Dated: September 18, 2018
s/ Joan N. Ericksen
JOAN N. ERICKSEN
United States District Judge

37a
Appendix C
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-3461
Hawo O. Ahmed
Appellee
v.
Heather Weyker, in her individual
capacity as a St. Paul Police Officer
Appellant
No: 18-3471
Hamdi A. Mohamud
Appellee
v.
Heather Weyker, in her individual
capacity as a St. Paul Police Officer
Appellant

Appeals from U.S. District Court
for the District of Minnesota
(0:17-cv-02070-JNE)
(0:17-cv-02069-JNE)

38a
Appendix C
ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
March 16, 2021
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

39a
Appendix D
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Ifrah Yassin,
Plaintiff,
v.
Heather Weyker, individually
and in her fficial capacity as a
St. Paul Police Officer; John
Does 1–2, individually and in
their official capacities as St.
Paul Police Officers; John
Does 3–4, individually and in
their official capacities as
supervisory members of the
St. Paul Police Department;
and The City of St. Paul,

Case No. 16-cv-2580
(JNE/TNL)
ORDER

Defendants.
Zane A. Umsted and Joshua A. Newville, Madia Law
LLC, appeared for Ifrah Yassin.
Glenn Greene and David G. Cutler, United States Department of Justice, appeared for Heather Weyker.
Filed: September 30, 2020
Ifrah Yassin asserted claims against the City of St.
Paul and members of the St. Paul Police Department
under 42 U.S.C. § 1983 and Bivens v. Six Unknown
Named Agents of Federal Bureau of Narcotics, 403 U.S.
388 (1971), for violations of the Fourth, Fifth, Sixth,

40a
Appendix D
and Fourteenth Amendments. In August 2017, the
Court dismissed Yassin’s claims against the City of St.
Paul and John Does 3–4; dismissed Yassin’s claims
against Heather Weyker for violations of the Fifth,
Sixth, and Fourteenth Amendments; and denied Weyker’s motion to dismiss Yassin’s claims under § 1983
and Bivens for violations of the Fourth Amendment.1
Order 13, Aug. 9, 2017, ECF No. 47. Weyker appealed.
The United States Court of Appeals for the Eighth Circuit “affirm[ed] the denial of Weyker’s motion to dismiss Yassin’s unlawful-arrest claim and remand[ed]
her case for further proceedings consistent with [its]
opinion.” Farah v. Weyker, 926 F.3d 492, 503–04 (8th
Cir. 2019).2 On remand, Weyker moved for summary
judgment. For the reasons set forth below, the Court
grants Weyker’s motion.
I.

BACKGROUND

On June 16, 2011, Yassin, Hamdi Mohamud, and
Hawo Ahmed were involved in an altercation with
Muna Abdulkadir. The incident took place at Abdulkadir’s apartment building in Minneapolis, Minnesota.
The four entered an elevator, where the altercation
took place. Abdulkadir eventually exited the elevator,
and the other three descended in the elevator.
1

Yassin’s claims against John Does 1–2 were dismissed
without prejudice by stipulation.
2
“To the extent Yassin is . . . suing for damages arising out
of her post-arrest indictment, the claim must proceed, if at all,
under section 1983.” Farah, 926 F.3d at 503 n.2.

41a
Appendix D
Abdulkadir retrieved a knife from her apartment, proceeded downstairs with her mother and her
brother, and exited the building. Abdulkadir approached Ahmed’s vehicle and smashed its windshield
with the knife. A short time later, Yassin, Ahmed, and
Mohamud exited the building. Abdulkadir slapped
Yassin with the knife. Yassin called 911 and reported
that Abdulkadir had slapped her with a knife and
smashed the windshield.
After Yassin called 911, Abdulkadir and her family
members returned to their apartment. Fearing arrest,
Abdulkadir went to a neighbor’s apartment and called
Weyker, a St. Paul police officer and, from August 2010
to August 2014, a Special Deputy United States Marshal. Weyker’s duties as a Special Deputy United
States Marshal included investigative work on a federal task force whose efforts led to the indictments of
approximately 30 individuals in 2010 in the Middle
District of Tennessee. Abdulkadir was a witness in that
investigation.
A Minneapolis police officer, Anthijuan Beeks, responded to the 911 call made by Yassin. Beeks interviewed Yassin, Ahmed, and Mohamud while other
officers attempted to locate Abdulkadir. Yassin and
Ahmed told Beeks that they had been in an altercation
with Abdulkadir and that Abdulkadir was the aggressor. Yassin told Beeks about Abdulkadir’s use of the
knife and damage to Ahmed’s car. Mohamud told Beeks
she had witnessed the events but did not participate in
them.

42a
Appendix D
Approximately 15 or 20 minutes after he arrived
on the scene, Beeks received a message to call Weyker.
Beeks called Weyker, who introduced herself as a St.
Paul police officer. Weyker also introduced the other
law enforcement officers who were on the call. Weyker
told Beeks that Abdulkadir was a witness in a federal
prostitution investigation; that the investigation resulted in the indictment of 30 Somali males; and that
Weyker had information and documentation that Yassin, Ahmed, and Mohamud were looking for Abdulkadir to intimidate her or cause bodily harm to her.
Beeks decided to speak to Yassin, Ahmed, and Mohamud separately. He placed Yassin in the back of a
squad car. Yassin told Beeks that she struck Abdulkadir after Abdulkadir hit Ahmed, who was pregnant, in
the stomach. Yassin denied knowing about the federal
prostitution investigation, acknowledged rumors of 30
men being locked up, and asserted that Abdulkadir
was a prostitute.
Beeks continued his investigation. He viewed
several videos taken by cameras in the apartment
building. One shows Abdulkadir, Yassin, Ahmed, and
Mohamud entering the elevator. Another shows Abdulkadir running from the elevator as Yassin and Ahmed
chase and strike Abdulkadir.
After he viewed the videos, Beeks located Abdulkadir and interviewed her. Abdulkadir told Beeks that
Yassin, Ahmed, and Mohamud attacked Abdulkadir in
the elevator, that one of the three stopped the elevator
by pressing a “stop” button, that Abdulkadir was able

43a
Appendix D
to make the elevator move again, and that Abdulkadir
was able to escape the three when the elevator doors
opened. Abdulkadir also told Beeks that she took a
knife from her apartment, that she smashed the windshield, and that she struck Yassin with the knife.
Additional law enforcement officers were present
at the scene. They included agents from the Federal
Bureau of Investigation and a sergeant from the Minneapolis Police Department, Gary Manty. Beeks spoke
with one of the agents after the agent interviewed Yassin and Ahmed. Beeks also conferred with Manty, who
had spoken with Weyker. She told Manty that Yassin,
Ahmed, and Mohamud were attempting to intimidate
Abdulkadir because Abdulkadir was a witness in a
federal sex-trafficking case. Yassin, Ahmed, and Mohamud were arrested.
On June 17, 2011, the United States filed a criminal complaint against Yassin in the Middle District of
Tennessee. The United States charged Yassin with retaliation against a witness. Weyker signed the criminal
complaint, submitted an affidavit in support of it, and
identified herself as an FBI Task Force Officer and St.
Paul Police Officer. On June 29, 2011, Yassin was indicted in the Middle District of Tennessee for retaliation against a witness and obstruction. In July 2013, a
jury found her not guilty of all charges.
Three years after her acquittal, Yassin brought
this action. She alleged that Weyker “did not have ‘information and documentation’ that Yassin, Ahmed, and
Mohamud had been actively seeking out Abdulkadir to

44a
Appendix D
intimidate her and cause bodily harm to her because
of her role in the federal investigation”; that Weyker
“had no ‘information or documentation’ of any kind regarding Yassin, Ahmed, and Mohamud – the first time
that she even heard of any of them was on June 16,
2011 – the day of the incident”; and that “[t]he reason
that Officer Weyker provided false information to Officer Beeks is that Abdulkadir was a lynchpin of Weyker’s manufactured human-trafficking case against
approximately 30 Somali males.” (Compl. ¶¶ 21, 24)
II.

DISCUSSION

Summary judgment is proper “if the movant
shows that there is no genuine dispute as to any material fact and the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a). To support an assertion that a fact cannot be or is genuinely disputed,
a party must cite “to particular parts of materials in
the record,” show “that the materials cited do not establish the absence or presence of a genuine dispute,”
or show “that an adverse party cannot produce admissible evidence to support the fact.” Fed. R. Civ. P.
56(c)(1)(A)–(B). “The court need consider only the cited
materials, but it may consider other materials in the
record.” Fed. R. Civ. P. 56(c)(3). In determining whether
summary judgment is appropriate, a court must view
genuinely disputed facts in the light most favorable to
the nonmovant, Ricci v. DeStefano, 557 U.S. 557, 586
(2009), and draw all justifiable inferences from the evidence in the nonmovant’s favor, Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 255 (1986).

45a
Appendix D
Weyker moved for summary judgment, asserting
that Yassin cannot sue Weyker under § 1983, that Yassin cannot sue Weyker under Bivens, and that Weyker
is entitled to qualified immunity. Yassin maintained
that Weyker is “subject to liability under § 1983”; that,
in the alternative, “Yassin’s claim may proceed under
Bivens”; and that Weyker is not entitled to qualified
immunity.
A. Section 1983
Weyker asserted that Yassin cannot sue Weyker
under § 1983 because Weyker did not act under color
of state law. According to Yassin, Weyker’s “emphasis
of her St. Paul credentials during the course of her misconduct . . . makes her a state actor.” In addition, Yassin maintained that Weyker is subject to liability
under § 1983 under theories of “dual employment” or
“joint activity.”
Section 1983 states:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen
of the United States or other person within
the jurisdiction thereof to the deprivation of
any rights, privileges, or immunities secured
by the Constitution and laws, shall be liable
to the party injured in an action at law, suit
in equity, or other proper proceeding for redress . . . .

46a
Appendix D
42 U.S.C. § 1983. A plaintiff asserting a claim under
§ 1983 must show that she “has been deprived ‘of a
right secured by the “Constitution and laws” of the
United States’ and that the defendant acted ‘under
color of any statute . . . of any State.’” Lugar v. Edmondson Oil Co., 457 U.S. 922, 931 (1982) (alteration
in original) (quoting Adickes v. S. H. Kress & Co., 398
U.S. 144, 150 (1970)); see West v. Atkins, 487 U.S. 42, 48
(1988) (“To state a claim under § 1983, a plaintiff must
allege the violation of a right secured by the Constitution and laws of the United States, and must show that
the alleged deprivation was committed by a person acting under color of state law.”). “The traditional definition of acting under color of state law requires that the
defendant in a § 1983 action have exercised power ‘possessed by virtue of state law and made possible only
because the wrongdoer is clothed with the authority of
state law.’” West, 487 U.S. at 49 (quoting United States
v. Classic, 313 U.S. 299, 326 (1941)). “Conduct causing
a deprivation of civil rights must be ‘fairly attributable’
to the state to be considered under color of state law.”
Smith v. Insley’s Inc., 499 F.3d 875, 880 (8th Cir. 2007)
(quoting Lugar, 457 U.S. at 937). “The defendant must
act or purport to act ‘in the performance of official duties, even if he oversteps his authority and misuses
power.’ Acts of officials in ‘the ambit of their personal
pursuits are plainly excluded’ from Section 1983 liability.” Magee v. Trs. of Hamline Univ., 747 F.3d 532, 535
(8th Cir. 2014) (citation omitted) (quoting Johnson v.
Phillips, 664 F.3d 232, 240 (8th Cir. 2011), and Dossett
v. First State Bank, 399 F.3d 940, 949 (8th Cir. 2005)).
“[W]hether a police officer is acting under color of state

47a
Appendix D
law turns on the nature and circumstances of the officer’s conduct and the relationship of that conduct to
the performance of his official duties.” Id. (alteration in
original) (quoting Roe v. Humke, 128 F.3d 1213, 1216
(8th Cir. 1997)). Section 1983 “is inapplicable to persons acting under color of federal law.” Haley v. Walker,
751 F.2d 284, 285 (8th Cir. 1984) (per curiam).
“The Fourth Amendment . . . requires that an officer have probable cause before making a warrantless
arrest. Probable cause exists when a police officer has
reasonably trustworthy information that is sufficient
to lead a person of reasonable caution to believe that
the suspect has committed or is committing a crime.”
Veatch v. Bartels Lutheran Home, 627 F.3d 1254, 1257
(8th Cir. 2010) (citation omitted). “[P]retrial detention
can violate the Fourth Amendment not only when it
precedes, but also when it follows, the start of legal process in a criminal case. The Fourth Amendment prohibits government officials from detaining a person in
the absence of probable cause. That can happen when
the police hold someone without any reason before the
formal onset of a criminal proceeding. But it also can
occur when legal process itself goes wrong—when, for
example, a judge’s probable-cause determination is
predicated solely on a police officer’s false statements.”
Manuel v. City of Joliet, 137 S. Ct. 911, 918 (2017) (citation omitted); see Stewart v. Wagner, 836 F.3d 978,
983 (8th Cir. 2016). If the legal proceeding used to establish probable cause is tainted such that probable
cause is lacking, “then the ensuing pretrial detention
violates the confined person’s Fourth Amendment

48a
Appendix D
rights.” Manuel, 137 S. Ct. at 920 n.8 (rejecting view
that a grand jury indictment “does expunge such a
Fourth Amendment claim”); see King v. Harwood, 852
F.3d 568, 587–88 (6th Cir. 2017).
Weyker asserted that Yassin cannot sue Weyker
under § 1983 because Weyker did not act under color
of state law. Weyker stated that she “was deputized as
a Special Deputy U.S. Marshal, sponsored by the FBI,
from August 24, 2010, through August 31, 2014”; that
her “duties as a Special Deputy included investigative
work on a task force supporting the FBI’s investigation
of approximately 30 subjects associated with Somali
gangs”; and that the investigation led to a federal sextrafficking prosecution “that Yassin was later accused
of obstructing.” Because she “was federally deputized
when Yassin was arrested for tampering with the
federal prosecution that Weyker was supporting as a
federal officer,” Weyker asserted that “§ 1983 is not
available to challenge [Yassin’s] arrest.”
Yassin responded that she may sue Weyker under
§ 1983 because Weyker presented herself as a St. Paul
police officer when she spoke to Beeks on June 16,
2011; Weyker drafted her police report as a St. Paul
police officer; and Weyker worked with Abdulkadir “for
nearly a year before she was deputized.” In addition,
Yassin asserted that Weyker is liable under § 1983
based on Weyker’s “dual employment”:
While Weyker emphasizes her federal credentials, there can be no dispute that she was also
employed by the St. Paul Police Department

49a
Appendix D
during the relevant period of time. As such,
her decision to wield state-level authority
against Ms. Yassin supports a § 1983 [claim],
regardless of the extent of her federal employment.
Finally, Yassin maintained that Weyker “engaged in a
joint activity supporting § 1983 liability” by “roping in
state actors (Office[r] Beeks and Sergeant Manty) as
unknowing dupes in her efforts to violate Ms. Yassin’s
constitutional rights.”
Weyker’s employment as a St. Paul police officer,
her identification as a St. Paul police officer on her call
with Beeks, her documentation of Yassin’s arrest,3 and
Weyker’s relationship with Abdulkadir before Weyker’s deputation do not demonstrate that Weyker was
acting under color of state law. Cf. Magee, 747 F.3d at
536 (“While his editorial noted he was an officer, this
recites his occupation and does not necessarily indicate
he was acting in his official capacity.”). Weyker was a
federally deputized member of a federal task force
whose efforts yielded indictments against approximately 30 individuals in 2010 in the Middle District of
Tennessee. Abdulkadir was a witness in that investigation. After she received a call from Abdulkadir, Weyker called Beeks. Federal law enforcement officers
were also on the call. Weyker told Beeks that Abdulkadir was a witness in a federal prostitution investigation; that the investigation resulted in the indictment
3

In her St. Paul Police Department supplemental offense/
incident report, Weyker identified herself as an FBI Task Force
Officer.

50a
Appendix D
of 30 Somali males; and that Weyker had information
and documentation that Yassin, Ahmed, and Mohamud
were looking for Abdulkadir to intimidate her or cause
bodily harm to her. As a federally deputized member of
the task force, Weyker was not acting under color of
state law when she allegedly violated Yassin’s Fourth
Amendment rights. See King v. United States, 917 F.3d
409, 433 (6th Cir. 2019) (“Although Detective Allen was
a detective with the Grand Rapids Police and was
therefore employed by the state, Detective Allen was
working full time with an FBI task force at the time of
the incident at issue. . . . As a deputized federal agent,
Detective Allen carried federal authority and acted under color of that authority rather than under any state
authority he may have had as a Grand Rapids Police
detective.”), cert. granted sub nom. Brownback v. King,
140 S. Ct. 2563 (2020), and cert. denied, 140 S. Ct. 2565
(2020); Guerrero v. Scarazzini, 274 F. App’x 11, 12 n.1
(2d Cir. 2008) (“Guerrero framed his false arrest claims
against Scarazzini and McAllister as arising under 42
U.S.C. § 1983; however, because Scarazzini and McAllister were federally deputized for their Task Force
work, this claim was properly brought (as the parties
agree) as a Bivens action.”); DeMayo v. Nugent, 517
F.3d 11, 14 n.5 (1st Cir. 2008) (“DeMayo originally
brought his claims without knowledge that Nugent
and Lugas were part of a DEA task force, rendering
42 U.S.C. § 1983 the appropriate avenue for relief,
although his complaint does not explicitly indicate
whether the action lay under § 1983 or Bivens. The
parties and the district court, however, all treated the

51a
Appendix D
suit as lying under Bivens after the officers’ roles were
revealed.”).
As to Yassin’s assertion of joint activity, she has
not directed the Court to any evidence that supports
her assertion. Instead, she characterized Beeks and
Manty as “unknowing dupes” in Weyker’s alleged “efforts to violate Ms. Yassin’s constitutional rights.” Yassin has not supported her assertion of “joint activity.”
See Arar v. Ashcroft, 585 F.3d 559, 568 (2d Cir. 2009)
(“A federal officer who conspires with a state officer
may act under color of state law; but since ‘federal officials typically act under color of federal law,’ they are
rarely deemed to have acted under color of state law.”
(citation omitted)); Premachandra v. Mitts, 753 F.2d
635, 641 n.7 (8th Cir. 1985) (en banc) (“Conspiracies
that make federal officials liable under section 1983
are not commonplace but nor are they unheard of.”); cf.
Magee, 747 F.3d at 536 (“To be liable under § 1983, a
private actor must be a ‘a willful participant in joint
activity with the State’ in denying a plaintiff ’s constitutional rights.” (quoting Dossett, 399 F.3d at 947)).
Yassin’s claim against Weyker for violation of Yassin’s
Fourth Amendment rights may not proceed under
§ 1983.
B. Bivens
Weyker asserted that Yassin cannot sue Weyker
under Bivens. Weyker asserted that Yassin’s “evidencefabrication claim presents a new Bivens context for
which numerous special factors counsel hesitation.”

52a
Appendix D
Yassin responded that this Court previously concluded
that her Fourth Amendment claim does not present a
new context for a Bivens action, that the Eighth Circuit
did not disturb this Court’s resolution of the issue, and
that “this Court’s prior resolution of the issue remains
the law of the case.”
The Court previously declined to reach the question of whether Yassin’s Fourth Amendment claim
should be brought under § 1983 or Bivens:
Because the Court finds that only the Fourth
Amendment, and not substantive due process,
is applicable; because a Fourth Amendment
claim in this case does not present a new context for a Bivens action; and because § 1983
and Bivens claims are analyzed similarly, the
Court does not reach the question of whether
Yassin’s claim should be brought under § 1983
or Bivens.
Order 7 n.5, Aug. 9, 2017, ECF No. 47. The Eighth Circuit did not decide that Yassin’s claim is viable under
Bivens. Instead, the court of appeals assumed it was
and considered the issue of qualified immunity:
Yassin’s case is different. Her primary theory
is that she was unlawfully arrested because
Weyker falsely told another police officer that
she was trying to intimidate a federal witness.
We need not decide whether this theory of liability would require us to extend Bivens, because Weyker has not meaningfully briefed
the point on appeal.

53a
Appendix D
Even if we assume that Yassin’s unlawfularrest claim is viable under Bivens, however,
Weyker still claims that she is entitled to
qualified immunity for every action she took
during the investigation. So we must address
the two familiar qualified-immunity questions: assuming Yassin’s allegations are true,
did Weyker violate her constitutional rights?
And if so, were those rights clearly established? On both points, our review is de novo,
and our answer is yes.
Farah, 926 F.3d at 503 (citations omitted) (footnote
omitted).
This Court’s statement in the August 9 Order that
“a Fourth Amendment claim in this case does not present a new context for a Bivens action” is not the law
of the case:
We have described the law of the case doctrine
as providing that “when a court decides upon
a rule of law, that decision should continue to
govern the same issues in subsequent stages
in the same case.” The underlying intent of
the doctrine is to “prevent[] the relitigation of
settled issues in a case, thus protecting the
settled expectations of parties, ensuring uniformity of decisions, and promoting judicial
efficiency.” The doctrine applies to appellate
decisions, as well as to final decisions by the
district court that have not been appealed. It
does not apply to interlocutory orders, however, “for they can always be reconsidered and

54a
Appendix D
modified by a district court prior to entry of a
final judgment.”
First Union Nat’l Bank v. Pictet Overseas Tr. Corp., 477
F.3d 616, 620 (8th Cir. 2007) (alteration in original) (citations omitted); see Gander Mountain Co. v. Cabela’s,
Inc., 540 F.3d 827, 830 (8th Cir. 2008) (“The doctrine
applies to decisions made by appellate courts and final
decisions made by district courts that have not been
appealed.”). The Court turns to whether Yassin’s claim
may proceed under Bivens.
“Determining whether an implied cause of action
is available under Bivens involves two steps.” Farah,
926 F.3d at 498. They are:
First, we must determine whether the cases
before us present one of “the three Bivens
claims the Court has approved in the past” or
whether, instead, allowing the plaintiffs to sue
would require us to extend Bivens to a “new
context.” If there is a previously recognized
Bivens claim alleged, then the cases may proceed. If not, then we advance to the second
step and ask whether any “special factors
counsel[ ] hesitation” before implying a new
cause of action “in the absence of affirmative
action by Congress.” Only if we are confident
that “the Judiciary is well suited . . . to consider and weigh the costs and benefits of allowing a damages action” will we take it upon
ourselves to do so. Otherwise, we will leave
the balancing to Congress.
Id. (alterations in original) (citations omitted) (quoting
Ziglar v. Abbasi, 137 S. Ct. 1843, 1857–60 (2017)); see

55a
Appendix D
Hernandez v. Mesa, 140 S. Ct. 735, 743 (2020). “The
proper test for determining whether a case presents a
new Bivens context is”:
If the case is different in a meaningful way
from previous Bivens cases decided by this
Court, then the context is new. Without endeavoring to create an exhaustive list of differences that are meaningful enough to make
a given context a new one, some examples
might prove instructive. A case might differ in
a meaningful way because of the rank of the
officers involved; the constitutional right at issue; the generality or specificity of the official
action; the extent of judicial guidance as to
how an officer should respond to the problem
or emergency to be confronted; the statutory
or other legal mandate under which the officer
was operating; the risk of disruptive intrusion
by the Judiciary into the functioning of other
branches; or the presence of potential special
factors that previous Bivens cases did not consider.
Ziglar, 137 S. Ct. at 1859–60.
Weyker asserted that “[t]he core holding of the
Eighth Circuit’s consolidated opinion in this matter is
broad and unequivocal” and that the “holding applies
with equal force to Yassin’s ‘primary theory’ of Bivens
liability—that Yassin ‘was unlawfully arrested because Weyker falsely told another police officer that
she was trying to intimidate a federal witness.’” The
Court agrees.

56a
Appendix D
“No Supreme Court case exactly mirrors the facts
and legal issues presented here. The one that comes
closest is Bivens itself. Bivens involved a claim against
federal agents for an illegal arrest and warrantless
search.” Farah, 926 F.3d at 498 (citations omitted).
“Weyker’s alleged misdeeds [in this case] are different
from those in Bivens, even if the ‘constitutional right
at issue’ is the same. The agents in Bivens handcuffed
and strip-searched the plaintiff and combed through
his apartment, all without a warrant. Weyker did none
of these things, nor anything similar.” Id. at 498–99 (citations omitted). Yassin alleged that “she was unlawfully arrested because Weyker falsely told another
police officer that [Yassin] was trying to intimidate a
federal witness.” Id. at 503.
In addition, “the mechanism of injury is different.
In Bivens, the plaintiff ’s injuries—‘humiliation, embarrassment, and mental suffering’—were directly
caused by the officers’ conduct.” Id. at 499. Here, Weyker was not the arresting officer; she was not present
at the scene. She passed on information to officers at
the scene who investigated Yassin and others. The investigation included interviews of several individuals
and review of video taken by cameras in the apartment
building. Based on that investigation, Yassin was arrested.
Finally, “recognizing an implied cause of action
here would pose a greater risk of interference with the
other branches of government than it did in Bivens.”
Id. “The initial step would be to discover what Weyker
said, to whom she said it, and when. The information

57a
Appendix D
Weyker provided to investigators . . . would then need
to undergo examination for its truth or falsity. For any
false information she provided, the question would be
whether the evidence was material. The determination
would center on whether other evidence available to
investigators . . . would have independently led them
to . . . detain” Yassin. Id.
“By any measure, [Yassin’s claim is] meaningfully
different from the Fourth Amendment claim at issue
in Bivens. [She] does not allege [Weyker] entered [her]
home without a warrant or violated [her] rights of privacy.” Cantú v. Moody, 933 F.3d 414, 423 (5th Cir. 2019),
cert. denied, 207 L. Ed. 2d 1052 (2020); see Farah, 926
F.3d at 500.
Weyker asserted that the Court “should not extend or assume the existence of a Bivens remedy for
Yassin’s claim for the same panoply of special factors
that gave the Eighth Circuit ‘pause’ with respect to the
related claims against Officer Weyker.” The Court
agrees. To prevail, Yassin needs “to show that Weyker’s
allegedly false information was what established probable cause” for Yassin’s arrest. Farah, 926 F.3d at 500.
That “after-the-fact inquir[y] . . . pose[s] a risk of intrusion on executive-branch authority to enforce the law
and prosecute crimes.” Id. at 501. “Another ‘special factor counselling hesitation’ is what Congress has already done to address injuries of the sort” Yassin has
allegedly suffered. Id. at 501. “[T]he existence of a statutory scheme for torts committed by federal officers”
is yet another. Cantú, 933 F.3d at 423. The Court

58a
Appendix D
concludes that Yassin’s Fourth Amendment claim is
not viable under Bivens.4
III.

CONCLUSION

Based on the files, records, and proceedings
herein, and for the reasons stated above, IT IS ORDERED THAT:
1.

Weyker’s Motion for Summary Judgment
[Docket No. 74] is GRANTED.

2.

Yassin’s Complaint is DISMISSED WITH
PREJUDICE as to Heather Weyker, John
Does 3–4, and the City of St. Paul.

LET JUDGMENT BE ENTERED ACCORDINGLY.
s/ Joan N. Ericksen
JOAN N. ERICKSEN
United States District Judge

4

Having concluded that Yassin’s Fourth Amendment claims
against Weyker may not proceed under § 1983 or Bivens, the
Court need not consider the arguments regarding qualified immunity. See Neb. Beef, Ltd. v. Greening, 398 F.3d 1080, 1085 (8th
Cir. 2005) (“Because we resolve the instant case on the lack of a
Bivens remedy, we do not reach the issue of qualified immunity.”).

59a
Appendix E
United States Court of Appeals
for the Eighth Circuit
-----------------------------------------------------------------------

No. 17-3207
-----------------------------------------------------------------------

Yasin Ahmed Farah
Plaintiff - Appellee
v.
Heather Weyker, individually and in her
official capacity as a St. Paul Police Officer
Defendant - Appellant
The City of St. Paul; John Does 1–5, in their
individual capacities as St. Paul Police Officers;
Richard Roes 1–5, in their individual capacities
as federal law enforcement officers
Defendants
------------------------The Human Trafficking Institute
Amicus on Behalf of Appellant

60a
Appendix E
-----------------------------------------------------------------------

No. 17-3208
-----------------------------------------------------------------------

Ifrah Yassin
Plaintiff - Appellee
v.
Heather Weyker, individually and in her
official capacity as a St. Paul Police Officer
Defendant - Appellant
The City of St. Paul; John Does 1–2,
individually and in their official capacities
as St. Paul Police Officers; John Does 3–4,
individually and in their official capacities
as supervisory members of the
St. Paul Police Department
Defendants
------------------------The Human Trafficking Institute
Amicus on Behalf of Appellant

61a
Appendix E
-----------------------------------------------------------------------

No. 17-3209
-----------------------------------------------------------------------

Hamdi Ali Osman
Plaintiff - Appellee
v.
Heather Weyker, in her individual
capacity as a St. Paul Police Officer
Defendant - Appellant
The City of St. Paul; John Bandemer, in his
individual and official capacities as a St. Paul
Police Sergeant; Robert Roes 4–6, in their
individual and official capacities as supervisory
members of the St. Paul Police Department
Defendants
------------------------The Human Trafficking Institute
Amicus on Behalf of Appellant

62a
Appendix E
-----------------------------------------------------------------------

No. 17-3210
-----------------------------------------------------------------------

Ahmad Abnulnasir Ahmad
Plaintiff - Appellee
v.
Heather Weyker, in her individual
capacity as a St. Paul Police Officer
Defendant - Appellant
The City of St. Paul; John Bandemer, in his
individual and official capacities as a St. Paul
Police Sergeant; John Does 1–2, in their
individual capacities as St. Paul Police Officers;
John Does 3–4, in their individual and official
capacities as supervisory members of the
St. Paul Police Department
Defendants
------------------------The Human Trafficking Institute
Amicus on Behalf of Appellant

63a
Appendix E
-----------------------------------------------------------------------

No. 17-3212
-----------------------------------------------------------------------

Bashir Yasin Mohamud
Plaintiff - Appellee
v.
Heather Weyker, in her individual
capacity as a St. Paul Police Officer
Defendant - Appellant
The City of St. Paul; John Bandemer, in his
individual and official capacities as a St. Paul
Police Sergeant; John Does 1–2, in their
individual capacities as St. Paul Police Officers;
John Does 3–4, in their individual and official
capacities as supervisory members of the
St. Paul Police Department
Defendants
------------------------The Human Trafficking Institute
Amicus on Behalf of Appellant

64a
Appendix E
-----------------------------------------------------------------------

No. 17-3213
-----------------------------------------------------------------------

Mohamed Amalle
Plaintiff - Appellee
v.
Heather Weyker, in her individual
capacity as a St. Paul Police Officer
Defendant - Appellant
The City of St. Paul; John Bandemer, in his
individual and official capacities as a St. Paul
Police Sergeant; John Does 1–2, in their
individual capacities as St. Paul Police Officers;
John Does 3–4, in their individual and official
capacities as supervisory members of the
St. Paul Police Department
Defendants
------------------------The Human Trafficking Institute
Amicus on Behalf of Appellant
-----------------------------------------------------------------------

Appeals from United States District Court
for the District of Minnesota - Minneapolis
-----------------------------------------------------------------------

Submitted: November 14, 2018
Filed: June 12, 2019
-----------------------------------------------------------------------

65a
Appendix E
Before COLLOTON, SHEPHERD, and STRAS, Circuit
Judges.
-----------------------------------------------------------------------

STRAS, Circuit Judge.
If a federal law-enforcement officer lies, manipulates witnesses, and falsifies evidence, should the
officer be liable for damages? We hold that the Constitution does not imply a cause of action under Bivens v.
Six Unknown Named Agents of Federal Bureau of Narcotics, 403 U.S. 388 (1971), so the answer must come
from Congress, not from us. And Congress has, so far,
answered no.
I.
In 2008, police officers in St. Paul, Minnesota, were
investigating a suspected sex-trafficking operation
involving minors. After one alleged victim was reported missing in Minneapolis and then turned up in
Nashville, federal investigators in Tennessee became
involved too. The government eventually charged thirty
people with a variety of crimes allegedly arising out of
an extensive conspiracy that spanned ten years and
four states.
The cases against nine of the defendants, including Ahmad Ahmad and Mohamed Amalle, proceeded to
trial in the Middle District of Tennessee. The jury acquitted some, while the district court acquitted the others after the jury found them guilty. See United States

66a
Appendix E
v. Adan, 913 F. Supp. 2d 555, 579 (M.D. Tenn. 2012). In
affirming, the Sixth Circuit expressed “acute concern,
based on [a] painstaking review of the record, that this
story of sex trafficking and prostitution may be fictitious.” United States v. Fahra, 643 F. App’x 480, 484
(6th Cir. 2016) (unpublished). Prosecutors dropped the
charges against the remaining defendants, including
Yasin Farah, Hamdi Osman, and Bashir Mohamud.
Ahmad, Amalle, Farah, Osman, and Mohamud
each sued Officer Heather Weyker, who had led the investigation for the St. Paul Police Department. They
accused Weyker of exaggerating and inventing facts in
reports, hiding evidence that would have exonerated
them, and pressuring and manipulating the alleged
victims into lying. She deceived prosecutors, the grand
jury, and other investigators, according to the complaints filed in each case, about the ages of the alleged
victims, whether the victims were coerced into sex, and
the relationships among the supposed conspirators. By
doing so, the plaintiffs claimed, Weyker caused them to
be charged and detained for periods ranging from four
months to over three years, all in violation of the
Fourth Amendment’s prohibition on unreasonable seizures. See Manuel v. City of Joliet, 137 S. Ct. 911, 919–
20 (2017).
A sixth plaintiff, Ifrah Yassin, was not part of the
alleged federal conspiracy. Rather, according to Yassin’s complaint, she was arrested for witness intimidation based on false information from Weyker. The
arrest arose out of a fight between a cooperating

67a
Appendix E
witness in the sex-trafficking investigation and one of
Yassin’s friends. After the fight started, Yassin called
911 and the witness called Weyker. Weyker then told
the officer responding to the 911 call that, based on “information and documentation,” Yassin and her friends
were trying to intimidate the witness and prevent her
from cooperating in a federal investigation. Relying on
Weyker’s tip, the officer arrested Yassin, who was later
charged with witness tampering and obstruction of
justice. A jury acquitted her of both charges.
The crux of Yassin’s case against Weyker is that no
“information and documentation” ever existed. Rather,
Weyker caused Yassin’s unlawful arrest and detention
by lying about the reason for the altercation.
All six, including Yassin, sought damages. Recognizing that Weyker had been deputized as a U.S. Marshal toward the conclusion of the joint investigation,
they pleaded causes of action under both 42 U.S.C.
§ 1983, which authorizes constitutional claims against
state officials; and Bivens, which operates similarly
against federal officials, notwithstanding the absence
of a statutory cause of action, see 403 U.S. at 397. Weyker moved to dismiss, arguing that neither theory was
viable. She reasoned that section 1983 did not apply to
her because she was a deputized federal official. As for
Bivens, she claimed that nothing she was accused of
doing was actionable. And even assuming the plaintiffs
could sue her, she added, she was entitled to qualified
immunity because the facts they alleged did not show

68a
Appendix E
that she had violated their clearly established constitutional rights.
The district court disagreed. It concluded that
even if Weyker was right that Bivens was the plaintiffs’
only remedy, the claims against her could still proceed.
Weyker immediately appealed, see Wilkie v. Robbins,
551 U.S. 537, 549 n.4 (2007) (holding that the courts of
appeals have jurisdiction to hear interlocutory appeals
challenging “the recognition of the entire [Bivens] cause
of action” in qualified-immunity cases), and we consolidated all six appeals in light of the overlapping facts
and legal issues involved.
II.
We begin with the five plaintiffs charged in the
original conspiracy prosecution. The threshold question is whether their cases are the type for which a
Bivens remedy is available. See, e.g., Bush v. Lucas, 462
U.S. 367, 390 (1983) (holding that a federal employee
demoted for exercising his First Amendment rights did
not have a Bivens claim). We address this “purely legal
question” de novo. Neb. Beef, Ltd. v. Greening, 398 F.3d
1080, 1083 (8th Cir. 2005).
On only three occasions has the Supreme Court
implied a cause of action under Bivens. See Carlson v.
Green, 446 U.S. 14, 16–18 (1980); Davis v. Passman, 442
U.S. 228, 248 (1979); Bivens, 403 U.S. at 397. Since
then, the Court has become “far more cautious” and
has, in fact, “‘consistently refused to extend Bivens to

69a
Appendix E
any new context or new category of defendants’” for almost forty years. Ziglar v. Abbasi, 137 S. Ct. 1843, 1855,
1857 (2017) (quoting Corr. Servs. Corp. v. Malesko, 534
U.S. 61, 68 (2001)). Recognizing that the Bivens inquiry
is about “who should decide” whether to create a new
cause of action, the Court has answered “most often . . .
Congress.” Id. at 1857 (emphasis added) (citation omitted).
Determining whether an implied cause of action is
available under Bivens involves two steps. First, we
must determine whether the cases before us present
one of “the three Bivens claims the Court has approved in the past” or whether, instead, allowing the
plaintiffs to sue would require us to extend Bivens to
a “new context.” Id. at 1859–60. If there is a previously
recognized Bivens claim alleged, then the cases may
proceed. If not, then we advance to the second step and
ask whether any “special factors counsel[ ] hesitation”
before implying a new cause of action “in the absence
of affirmative action by Congress.” Id. at 1857 (citation
omitted). Only if we are confident that “the Judiciary
is well suited . . . to consider and weigh the costs and
benefits of allowing a damages action” will we take it
upon ourselves to do so. Id. at 1858. Otherwise, we will
leave the balancing to Congress.
A.
No Supreme Court case exactly mirrors the facts
and legal issues presented here. See id. at 1859–60

70a
Appendix E
(explaining that the comparison is to Supreme Court
cases). The one that comes closest is Bivens itself. See
Bivens, 403 U.S. at 389–90; cf. Carlson, 446 U.S. at 16
n.1, 18–23 (allowing a claim against federal prison officials who failed to treat a prisoner’s asthma); Davis,
442 U.S. at 230, 236–48 (permitting a congressman’s
administrative assistant to sue after he fired her).
Bivens involved a claim against federal agents for an
illegal arrest and warrantless search. See 403 U.S. at
389. Here, the allegations are that a federally deputized officer duped prosecutors and a grand jury into
believing that the plaintiffs were part of a multi-state
sex-trafficking conspiracy.
To determine whether the differences “are meaningful enough to make [this] context a new one,” the
Supreme Court has instructed us to consider several
factors, including:
the rank of the officers involved; the constitutional right at issue; the generality or specificity of the official action; the extent of judicial
guidance as to how an officer should respond
to the problem or emergency to be confronted;
the statutory or other legal mandate under
which the officer was operating; the risk of
disruptive intrusion by the Judiciary into the
functioning of other branches; [and] the presence of potential special factors that previous
Bivens cases did not consider.

71a
Appendix E
Abbasi, 137 S. Ct. at 1859–60 (emphasizing that this
list is illustrative, not “exhaustive”). The cases before
us are meaningfully different from Bivens in three ways.
First, Weyker’s alleged misdeeds are different from
those in Bivens, even if the “constitutional right at issue” is the same. Id. at 1860. The agents in Bivens
handcuffed and strip-searched the plaintiff and combed
through his apartment, all without a warrant. See 403
U.S. at 389. Weyker did none of these things, nor anything similar. She spoke to witnesses, drafted reports,
and shared information with prosecutors and other investigators. These information-gathering and casebuilding activities are a different part of police work
than the apprehension, detention, and physical searches
at issue in Bivens.
Second, the mechanism of injury is different. In
Bivens, the plaintiff ’s injuries—“humiliation, embarrassment, and mental suffering”—were directly
caused by the officers’ conduct. Id. at 389–90. Here,
by contrast, Weyker’s actions injured the plaintiffs
through a series of intervening steps. And those intervening steps involved decisions by independent legal
actors—the prosecutors who chose to pursue charges
against the plaintiffs, the grand jury that voted to
indict them, and the judges and magistrates who
approved their continued detention. This indirect
mechanism of injury bears little resemblance to the
straightforward claims from Bivens.

72a
Appendix E
Third, recognizing an implied cause of action here
would pose a greater risk of interference with the other
branches of government than it did in Bivens. See Abbasi, 137 S. Ct. at 1860. Probing the causal chain in
cases like these would involve delving into the evidence before numerous decisionmakers, including federal investigators, prosecutors, and the grand jury. The
initial step would be to discover what Weyker said, to
whom she said it, and when. The information Weyker
provided to investigators, prosecutors, and the grand
jury would then need to undergo examination for its
truth or falsity. For any false information she provided,
the question would be whether the evidence was material. The determination would center on whether other
evidence available to investigators and prosecutors
would have independently led them to charge or detain
the plaintiffs. Cf. Williams v. City of Alexander, 772
F.3d 1307, 1311 (8th Cir. 2014) (citing Franks v. Delaware, 438 U.S. 154 (1978)). Only then, after probing executive charging decisions and peeking behind the
curtain of customarily secret grand-jury proceedings,
would the plaintiffs be able to prove their cases. Nothing so intrusive was required to prove the claims in
Bivens.
To be sure, similarities exist. Bivens involved alleged violations of the Fourth Amendment’s prohibition on “unreasonable searches and seizures,” and so
do these cases. 403 U.S. at 389 (quoting U.S. Const.
amend. IV); see also Abbasi, 137 S. Ct. at 1856
(stressing “the continued force . . . of Bivens in the

73a
Appendix E
search-and-seizure context in which it arose”). But
treating all search-and-seizure cases the same would
contradict the Supreme Court’s direction that a context can be new even if it involves the same constitutional right as an existing case. See Abbasi, 137 S. Ct.
at 1859.
Nor is the context the same just because Weyker
and the agents in Bivens were “street-level” investigators whose alleged misconduct only impacted a single
investigation, rather than senior officers engaged in
policymaking activities. It is true, as Osman and Farah
point out, that the Supreme Court emphasized “the
rank of the officers involved” and “the generality or
specificity of the official action” in its most recent refusal to extend Bivens. See id. at 1860–61 (addressing
claims against Justice Department officials and prison
wardens based on post-9/11 detention policies and conditions). Even so, the Court left no doubt that these
were just two features among many that could meaningfully differentiate potential causes of action. See id.
at 1859–60.
The three differences we have identified—the sorts
of actions being challenged, the mechanism of injury,
and the kinds of proof those injuries would require—
are “meaningful enough” that we cannot simply assume that the same reasons that justified permitting
the plaintiff to recover damages in Bivens apply
equally here. Id. at 1859. Allowing the plaintiffs to pursue damages claims in this context would mean extending Bivens, no matter how “modest” the extension

74a
Appendix E
may be, id. at 1864, so we must decide whether this is
one of the unusual situations in which we are “well
suited . . . to consider and weigh the costs and benefits
of allowing a damages action to proceed,” id. at 1858.
B.
According to the Supreme Court, we must now determine at the second step whether anything about
these cases “causes [us] to pause before acting without
express congressional authorization.” Id. It does not
take much to make us pause, because “[i]n most instances, . . . [Congress] is in the better position to consider if the public interest would be served by imposing
a new substantive legal liability.” Id. at 1857 (internal
quotation marks and citation omitted). Indeed, recognizing the Court’s “caution” in this regard, we have
adopted a “presumption against judicial recognition of
direct actions for violations of the Constitution by federal officials.” Neb. Beef, 398 F.3d at 1084 (citation
omitted).
Among the “special factors” that have been decisive in the past, Abbasi, 137 S. Ct. at 1857–58, the most
relevant here are whether a Bivens action “would require courts to interfere in an intrusive way with sensitive functions of the Executive Branch,” id. at 1861;
whether Congress has taken other action in the area
without authorizing a damages remedy, see id. at 1862;
and whether a “remedial structure” is already in place
to address constitutional violations, even if it does not

75a
Appendix E
go as far as a Bivens remedy would, id. at 1858, 1862–
63. See also id. at 1858, 1861 (identifying additional
“special factors”). When factors like these are present,
the Supreme Court has explained, it is “less probable
that Congress would want the Judiciary to entertain a
damages suit.” Id. at 1858.
1.
The first special factor present here is a variation
on one the Supreme Court has already identified: the
risk of burdening and interfering with the executive
branch’s investigative and prosecutorial functions. Cf.
id. at 1861; see also id. at 1858 (recognizing that other
special factors will appear in future cases, but that
they are “difficult to predict in advance”). As we explain above, for these plaintiffs to prevail, they would
need to show that Weyker’s allegedly false information
was what established probable cause for their arrests
and detention. Cf. Williams, 772 F.3d at 1311 (explaining that to succeed on a false-arrest claim against an
officer who has lied in a warrant application, a plaintiff must prove that “[o]nce the purportedly false statements are removed, the affidavit’s remaining content
does not support a finding of probable cause”).
This type of showing would invite a wide-ranging
inquiry into the evidence available to investigators,
prosecutors, and the grand jury. It would not just be
limited to the theories actually pursued by the prosecutors, because the question is not whether their

76a
Appendix E
theories had support. Rather, it would focus on
whether there was probable cause to charge the plaintiffs with a crime that would have justified their detention pending trial. See Devenpeck v. Alford, 543 U.S.
146, 153 (2004) (“The Fourth Amendment’s concern
with ‘reasonableness’ allows certain actions to be
taken in certain circumstances, whatever the subjective intent [of the officials involved].” (brackets omitted) (quoting Whren v. United States, 517 U.S. 806, 814
(1996))); Keil v. Triveline, 661 F.3d 981, 986 (8th Cir.
2011). Reconstructing the record before the grand
jury, contemplating a panoply of federal crimes, and
determining whether it would have been reasonable to
think that the plaintiffs committed any of them would
be among the likely steps in the analysis.
Take Farah’s case, for example. He assures us that
there would be no need to look at “the great bulk” of
the grand-jury evidence, because Weyker was his only
point of contact with investigators, so any possible support for the charges must have come from her. But to
verify this assertion, the factfinder still has to know
what was in the grand-jury record. Only if there really
is nothing implicating Farah—or at least nothing that
could have supported probable cause—in the police reports, witness statements, transcripts, and other materials will the factfinder be able to determine that
Weyker’s alleged misdeeds caused his injuries.
To be sure, sometimes courts must undertake this
sort of review. Indeed, if the plaintiffs’ section 1983
claims turn out to be viable, see infra Part II.C, the

77a
Appendix E
district court may have to do so in these cases. But such
after-the-fact inquiries still pose a risk of intrusion on
executive-branch authority to enforce the law and
prosecute crimes, not to mention encroach on the usual
secrecy of charging decisions and grand-jury proceedings. That some section 1983 cases pose similar risks
just reflects that Congress has balanced the costs and
benefits and decided that the potential encroachment
is worth it. The fact that recognizing the plaintiffs’
claims in these cases would require us to make this determination on our own, without any congressional
guidance, is reason enough “to pause before acting.”
Abbasi, 137 S. Ct. at 1858.
2.
Another “special factor counselling hesitation” is
what Congress has already done to address injuries of
the sort the plaintiffs have allegedly suffered. Id. The
so-called Hyde Amendment allows courts to award attorney fees to criminal defendants who prevail against
“vexatious, frivolous, or . . . bad[-]faith” positions taken
by the government. Act of Nov. 26, 1997, Pub. L. No.
105-119, § 617, 111 Stat. 2440, 2519 (codified at 18
U.S.C. § 3006A note). And those who are wrongly convicted and sentenced may seek release under 28 U.S.C.
§ 2255 or sue the government for damages, see 28
U.S.C. § 1495 (creating a cause of action for damages
“by any person unjustly convicted of an offense against
the United States and imprisoned”); see also id. § 2513(e)

78a
Appendix E
(capping the damages available for wrongful imprisonment).
Understandably, the plaintiffs are not satisfied
with these options, which are unavailable to them.
They cannot recover attorney fees, for example, because they were represented by appointed counsel. See
§ 617, 111 Stat. at 2519 (excepting “case[s] in which the
defendant [was] represented by assigned counsel paid
for by the public”). Nor can they seek release or damages because they were never convicted. See 28 U.S.C.
§ 2255(a) (limiting relief to “prisoner[s] in custody under sentence of a [federal] court”); id. § 1495 (requiring “convict[ion]” and “imprison[ment]”). But far from
supporting their position, the plaintiffs’ ineligibility for
these remedies actually cuts against recognizing a new
cause of action.
The reason is that it would upset the existing “remedial structure.” Abbasi, 137 S. Ct. at 1858. These
plaintiffs are ineligible for relief under the unjustconviction statute precisely because they were acquitted or had their charges dropped before trial. But had
they been convicted and imprisoned, they would be eligible to seek damages under the unjust-conviction
statute. The fact that Congress has expressly provided
a damages remedy for some victims of this particular
type of injury, but not for others, suggests that it considered the issue and made a deliberate choice. This is
a “convincing reason” not to imply a second, distinct
“freestanding remedy in damages.” Id. (citation omitted).

79a
Appendix E
The plaintiffs complain that these alternatives
would not have offered them “roughly similar compensation” or provided “roughly similar incentives” to deter officers from violating the law. Minneci v. Pollard,
565 U.S. 118, 130 (2012). They forget, however, that
Bivens remedies are the exception, and if they were
available every time “roughly similar” remedies are
not, then Bivens would become the rule, available in all
but the most unusual constitutional cases. To be sure,
the availability of “roughly similar” remedies was discussed in one Supreme Court decision, see id., but since
then, no case has mentioned it, much less relied on it.
See Abbasi, 137 S. Ct. at 1858, 1862–63 (saying nothing
about similarity or comparability, despite addressing
alternative remedies in depth). To the contrary, the
Court has since made clear that even remedies that
provide no compensation for victims and little deterrence for violators, such as injunctions and writs of habeas corpus, trigger the general rule that, “when
alternative methods of relief are available, a Bivens
remedy usually is not.” Id. at 1863 (citing several cases,
including Minneci, 565 U.S. at 124–26).
*

*

*

The bottom line is that a balance must be struck
between the costs and benefits of allowing plaintiffs
who have been wrongfully charged and detained based
on allegedly fabricated evidence to sue for damages.
The costs of implying a cause of action include exposing federal officials to “the complex sphere of litigation,” id. at 1858, and intruding on prosecutorial

80a
Appendix E
functions. Among the benefits, however, are deterring
misconduct, protecting the integrity of the criminal adjudicatory process, and preventing innocent people
from being illegally detained. It is not our place to
weigh these competing policy concerns. Rather, having
identified “sound reasons to think Congress might
doubt the efficacy or necessity of a damages remedy,”
we “must refrain from creating [one]” ourselves. Id.
C.
Declining to extend Bivens does not necessarily
end these five cases, however, because the plaintiffs
also brought section 1983 claims against Weyker. Before the district court, Weyker argued that she was not
acting under color of state law when she committed her
alleged misdeeds, because she had been deputized as a
federal officer by the time the plaintiffs were indicted.
See Magee v. Trs. of Hamline Univ., 747 F.3d 532, 535
(8th Cir. 2014). This argument, which the district court
did not address, potentially requires a fact-intensive
analysis of “the nature and circumstances” of Weyker’s alleged misconduct and its “relationship . . . to
the performance of [her] official [state] duties.” Id. (citation omitted); see also West v. Atkins, 487 U.S. 42, 49
(1988) (“The traditional definition of acting under color
of state law requires that the defendant in a § 1983 action have exercised power ‘possessed by virtue of state
law and made possible only because the wrongdoer is
clothed with the authority of state law.’” (quoting
United States v. Classic, 313 U.S. 299, 326 (1941))). For

81a
Appendix E
this reason, and because the parties have not fully
briefed this question on appeal, we remand for the district court to consider the applicability of section 1983
in the first instance.1
III.
Yassin’s case is different. Her primary theory is
that she was unlawfully arrested because Weyker
falsely told another police officer that she was trying
to intimidate a federal witness. We need not decide
whether this theory of liability would require us to extend Bivens, because Weyker has not meaningfully
briefed the point on appeal. See White v. Jackson, 865
F.3d 1064, 1075 (8th Cir. 2017).
Even if we assume that Yassin’s unlawful-arrest
claim is viable under Bivens,2 however, Weyker still
claims that she is entitled to qualified immunity for
every action she took during the investigation. So we
must address the two familiar qualified-immunity
questions: assuming Yassin’s allegations are true, did
Weyker violate her constitutional rights? And if so,
were those rights clearly established? See Hager v. Ark.
Dep’t of Health, 735 F.3d 1009, 1013 (8th Cir. 2013).

1

We decline Weyker’s invitation to skip over the under-colorof-state-law element to decide her claim to qualified immunity.
2
To the extent Yassin is also suing for damages arising out
of her post-arrest indictment, the claim must proceed, if at all,
under section 1983. See supra Part II.C.

82a
Appendix E
On both points, our review is de novo, see id., and our
answer is yes.
First, Yassin alleged a constitutional violation. According to her complaint, the officer who arrested her
had no reason to suspect her of a crime until Weyker
lied to him. In fact, the complaint suggests that the
facts known to the officer led him to treat her as a victim, at least until he heard from Weyker. These allegations, if true, would establish an unlawful-arrest claim
under the Fourth Amendment. See Williams, 772 F.3d
at 1310; cf. Small v. McCrystal, 708 F.3d 997, 1006 (8th
Cir. 2013) (“Officers remain liable . . . for the reasonably foreseeable acts of actors they deceive.”).
Second, the right Weyker allegedly violated was
clearly established. It is true, as Weyker explains, that
sexual-abuse and sex-trafficking cases often put investigators in difficult positions, particularly when there
are minors involved. Cf. Myers v. Morris, 810 F.2d 1437,
1459 (8th Cir. 1987) (noting “[t]he uncertainty surrounding acceptable investigative techniques for suspected child sexual abuse”). But even so, a reasonable
officer would know that deliberately misleading another officer into arresting an innocent individual to
protect a sham investigation is unlawful, regardless of
the difficulties presented by the case. See, e.g., Williams, 772 F.3d at 1313; Small, 708 F.3d at 1006.

83a
Appendix E
IV.
We accordingly vacate the denial of Weyker’s motions to dismiss Ahmad’s, Amalle’s, Farah’s, Osman’s,
and Mohamud’s complaints. We instruct the district
court on remand to dismiss their Bivens claims and determine whether their cases may proceed under section 1983. We also affirm the denial of Weyker’s motion
to dismiss Yassin’s unlawful-arrest claim and remand
her case for further proceedings consistent with this
opinion.

84a
Appendix F
List of Cases Resulting from
Respondent’s Task-Force Investigation
Yassin v. Weyker, No. 16-CV-2580, 2020 WL 6438892 (D.
Minn. Sept. 30, 2020) (on remand from Farah v.
Weyker, 926 F.3d 492 (8th Cir. 2019)), appeal pending, No. 20-3299 (docketed Nov. 2, 2020).
Mohamud v. Weyker, No. 17-CV-2069, 2018 WL
4469251 (D. Minn. Sept. 18, 2018), vacated and remanded sub nom. Ahmed v. Weyker, 984 F.3d 564
(8th Cir. 2020), reh’g & reh’g en banc denied (Mar.
16, 2021).
Adan v. Weyker, No. 16-CV-1235, 2017 WL 3421388 (D.
Minn. Aug. 9, 2017).
Afyare v. Weyker, No. 16-CV-1758, 2017 WL 3421390 (D.
Minn. Aug. 9, 2017).
Ahmad v. Weyker, No. 16-CV-1902, 2017 WL 3425685
(D. Minn. Aug. 9, 2017), vacated and remanded sub
nom. Farah v. Weyker, 926 F.3d 492 (8th Cir. 2019).
Ali v. Weyker, No. 16-CV-1241, 2017 WL 3425667 (D.
Minn. Aug. 9, 2017).
Amalle v. Weyker, No. 16-CV-1898, 2017 WL 3425683
(D. Minn. Aug. 9, 2017), vacated and remanded sub
nom. Farah v. Weyker, 926 F.3d 492 (8th Cir. 2019).
Fahra v. Weyker, No. 16-CV-1146, 2017 WL 3421387 (D.
Minn. Aug. 9, 2017).
Faduma Farah v. Weyker, No. 16-CV-1175, 2017 WL
3425662 (D. Minn. Aug. 9, 2017).

85a
Appendix F
Yasin Farah v. Weyker, No. 16-CV-1289, 2017 WL
3425676 (D. Minn. Aug. 9, 2017), vacated and remanded, 926 F.3d 492 (8th Cir. 2019).
Hassan v. Weyker, No. 16-CV-1911, 2017 WL 3425687
(D. Minn. Aug. 9, 2017).
Hersi v. Weyker, No. 16-CV-3714, 2017 WL 3425694 (D.
Minn. Aug. 9, 2017).
Ibrahim v. Weyker, No. 16-CV-1865, 2017 WL 3425678
(D. Minn. Aug. 9, 2017).
Jama v. Weyker, No. 16-CV-1230, 2017 WL 3425665 (D.
Minn. Aug. 9, 2017).
Khalif v. Weyker, No. 16-CV-1237, 2017 WL 3425666 (D.
Minn. Aug. 9, 2017).
Mohamud v. Weyker, No. 16-CV-1894, 2017 WL
3425681 (D. Minn. Aug. 9, 2017), vacated and remanded sub nom. Farah v. Weyker, 926 F.3d 492
(8th Cir. 2019).
Abdifatah Omar v. Weyker, No. 16-CV-1243, 2017 WL
3425672 (D. Minn. Aug. 9, 2017).
Liban Omar v. Weyker, No. 16-CV-1113, 2017 WL
3425654 (D. Minn. Aug. 9, 2017).
Mohamed Omar v. Weyker, No. 16-CV-1166, 2017 WL
3425656 (D. Minn. Aug. 9, 2017).
Osman v. Weyker, No. 16-CV-908, 2017 WL 3425647 (D.
Minn. Aug. 9, 2017), vacated and remanded sub
nom. Farah v. Weyker, 926 F.3d 492 (8th Cir. 2019).
Salad v. Weyker, No. 16-CV-1242, 2017 WL 3425671 (D.
Minn. Aug. 9, 2017).

86a
Appendix F
Yusuf v. Weyker, No. 16-CV-1012, 2017 WL 3425649 (D.
Minn. Aug. 9, 2017).
United States v. Afyare, No. 3:10-CR-00260, 2013 WL
2643408 (M.D. Tenn. June 12, 2013), aff ’d in part,
rev’d in part, 632 Fed. Appx. 272 (6th Cir. 2016).
United States v. Adan, 913 F. Supp. 2d 555 (M.D. Tenn.
2012), aff ’d sub nom. United States v. Fahra, 643
Fed. Appx. 480 (6th Cir. 2016).

